<html>
<title> - THE STATE OF NORTHERN BORDER PREPAREDNESS: A REVIEW OF FEDERAL, STATE, AND LOCAL COORDINATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
THE STATE OF NORTHERN BORDER PREPAREDNESS: A REVIEW OF FEDERAL, STATE, 
                         AND LOCAL COORDINATION

=======================================================================

                             FIELD HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2011

                               __________

                           Serial No. 112-55

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
73-742                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>  


                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Kathleen C. Hochul, New York
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Curtis Brown, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Hansen Clarke, a Representative in Congress From 
  the State of Michigan, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     2

                               WITNESSES
                                Panel I

Mr. Andrew Velasquez, III, Regional Administrator, Region V, 
  FEMA:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. Michael Parks, Ninth District Commander, U.S. Coast Guard:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. John S. Beutlich, Director of the Northern Region, Office of 
  Air and Marine, U.S. Customs and Border Protection:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                                Panel II

Captain W. Thomas Sands, Deputy State Director, Division of 
  Emergency Management and Homeland Security:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. Donald R. Austin, Administration Division, Fire Department, 
  City of Detroit:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35
Mr. R. Daryl Lundy, Director, Office of Homeland Security and 
  Emergency Management, City of Detroit:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Mr. James P. Buford, P.E.M., Director, Department of Homeland 
  Security and Emergency Management, Wayne County, Michigan:
  Oral Statement.................................................    44
  Prepared Statement.............................................    46


THE STATE OF NORTHERN BORDER PREPAREDNESS: A REVIEW OF FEDERAL, STATE, 
                         AND LOCAL COORDINATION

                              ----------                              


                        Friday, October 28, 2011

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                       Detroit, MI.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
the Marvin I. Danto Engineering Development Center Auditorium, 
Wayne State University College of Engineering, 5050 Anthony 
Wayne Drive, Detroit, Michigan, Hon. Gus M. Bilirakis [Chairman 
of the subcommittee] presiding.
    Present: Representatives Bilirakis and Clarke.
    Mr. Bilirakis. Good morning. The Committee on Homeland 
Security, Subcommittee on Emergency Management, Preparedness, 
Response, and Communications will come to order.
    The subcommittee is meeting today to receive testimony on 
the efforts of Federal, State, and local officials to work 
together to address the homeland security needs of the Northern 
Border.
    I appreciate the effort taken by all of those involved to 
have this important field hearing. This is an official 
Congressional hearing, as opposed to a town hall meeting, and 
as such, we must abide by the certain rules of the Committee on 
Homeland Security and the House of Representatives.
    I kindly wish to remind all guests today that 
demonstrations from the audience, including applause and verbal 
outbursts, as well as the use of signs or placards, are a 
violation of the rules of the House of Representatives. It is 
important that we respect the decorum and the rules of this 
committee.
    I have also been requested to state that photography and 
cameras are limited to accredited press only.
    I now recognize myself for an opening statement. I am 
pleased to be here in Detroit this morning, and I thank 
Congressman Clarke and Wayne State for hosting this 
subcommittee. My wife grew up in the Detroit area. So I have 
been here a couple of times. Very, very impressed with the 
university and also the downtown area.
    Unfortunately, I won't have a lot of time to stay. But 
thank you, Hansen, for inviting me.
    We got off to a great start this morning by observing the 
tabletop exercise. It was a challenging scenario, and the 
collaboration we witnessed at the exercise is so vital to our 
preparedness and response efforts.
    We have two very distinguished panels of witnesses today 
who will provide the subcommittee with their perspective on the 
unique homeland security issues and challenges along the 
Northern Border, and particularly in the Detroit area. I am 
interested in learning more about how you work with each other 
and with your Canadian partners to address these challenges and 
share best practices. So important.
    Before I yield to Congressman Clarke for his opening 
statement, I just want to let you know that your Congressman is 
working tirelessly for you and the Detroit area in Washington, 
DC, and I want to tell you how well-respected he is in 
Washington, DC.
    Mr. Clarke. Thank you.
    Mr. Bilirakis. Extremely effective, works well with the 
Majority party, and I tell you, he is a rising star as far as I 
am concerned. Anything I can do for Hansen, because I know his 
heart is in the right place always.
    So, anyways, it is great to be here again. With that, I 
welcome our witnesses here today, and I look forward to your 
testimony. But I do want to yield to Hansen for his opening 
statement.
    Mr. Clarke. Thank you, Mr. Chairman.
    It is an honor to have this body meet here in the city of 
Detroit. As a matter of fact, this hearing is historic. This is 
the first time a Homeland Security Subcommittee has ever met in 
this region, probably one of the few times ever that we have 
had an official Congressional hearing here in the city of 
Detroit.
    That is because this Chairman understands the importance of 
securing this region from a terrorist attack and also from any 
other disaster. This region and this city has unique assets 
that create a risk of an attack or would make the consequences 
of any disaster just devastating in terms of loss of life and 
disruption to not only our regional, but also our National 
economy.
    We have our international bridge, the Ambassador Bridge, 
our tunnel, our drinking water system. We have a large regional 
airport, a nuclear power plant in the region, all within a very 
large metropolitan area that has millions of people. We are at 
risk.
    But yet, even though we are at risk, our first responders--
and that was very clear from the discussion on the simulated 
biological attack at Wayne State University that we had just 
prior to this hearing--is that our first responders, our local 
police, fire, and emergency medical providers, those are the 
ones that will be called into action in the event of some type 
of a disaster.
    But it is our very State and local government agencies that 
don't have the revenue right now to provide the equipment, the 
staffing, the training, the planning, and the technical 
assistance that we need to better protect this region. This 
housing crisis has just devastated our tax base. So we need the 
resources.
    At a National level, one of the most disturbing findings is 
that Secretary Napolitano said that we are at the highest risk, 
as a Nation, of a terrorist attack since 9/11. But yet this 
Congress continues to cut the homeland security budget and, as 
a matter of fact, had threatened to cut all funding eligibility 
of metro Detroit to the Urban Assistance Security Initiative 
funding.
    I had to offer an amendment to restore that funding. With 
the support of Chairman Bilirakis, that amendment--yes, offered 
by a Democrat who is a freshman--was successful on the floor of 
the House. I want to thank him for his support.
    But so, the point is this. We have got challenges right now 
in protecting our people, our infrastructure, and also making 
the point to Congress that we need more investment here in this 
region to not only protect Detroiters, but to protect our 
economy.
    You know, all of those assets that really put us at risk--
the busiest international border crossing in North America; the 
global headquarters for one of the largest companies in the 
world, General Motors; a great research university here; our 
manufacturing know-how; the best-trained workforce around--all 
of those resources, though, gives us the ability to put this 
entire country back to work if our people are protected, if we 
have the resources invested in the city.
    So it is my great honor to be here not only as a Member of 
the Homeland Security Committee, as a lifelong Detroiter, but 
also as a partner to this man, the Chairman of the EPRC 
Subcommittee of the Homeland Security Committee.
    Regardless of whatever you hear on the news or you see on 
TV, Republicans and Democrats can work together to better 
protect our people in this country from threats. He and I, our 
partnership together, exemplify that working relationship.
    So, in closing, I am honored to be here as a part of this 
historic Congressional committee. I just want to say on a 
personal note, though, Dr. David Weinreich, who is right here, 
who has been assisting me for all the time, the few months I 
have been in Congress, has now chosen to leave employment in 
the United States Congress to go to other promising pursuits. 
His service to our country, to the Congress will be sorely 
missed, but I appreciate his work here.
    So, Chairman, I will turn it over to you, and thank you 
again.
    Mr. Bilirakis. Thank you. Thank you very much. Thanks for 
your remarks.
    Our first witness is Administrator Andrew Velasquez. Mr. 
Velasquez is the administrator for the U.S. Department of 
Homeland Security's Federal Emergency Management Agency Region 
V, and he is responsible for preparedness coordination in 
Illinois, Indiana, Michigan, Minnesota, Ohio, and Wisconsin. 
Wow.
    Prior to becoming regional administrator, Mr. Velasquez 
served as the director of the Illinois Emergency Management 
Agency and as homeland security adviser to the Governor. 
Administrator Velasquez has also served as the executive 
director of Chicago's Office of Emergency Management and 
Communications and served in the Chicago Police Department for 
over 10 years.
    Administrator Velasquez earned bachelor's and master's 
degrees in criminal justice from Illinois State University and 
an MBA from St. Xavier University.
    Our next witness is Rear Admiral Michael Parks. Welcome, 
Admiral. Rear Admiral Parks is the operational commander of the 
Ninth Coast Guard District, which spans the five Great Lakes, 
St. Lawrence Seaway, and the surrounding States. He most 
recently served as the deputy director of operations for 
headquarters, United States Northern Command, where he was 
principal adviser to the U.S. NORTHCOM commander on all 
operational matters.
    Admiral Parks earned his bachelor's of science in 
government from the United States Coast Guard Academy, his 
master's of public administration from George Washington 
University, and a master's of science and national security 
strategy policy from the National War College.
    Following Admiral Parks, we will hear from Mr. John 
Beutlich. Mr. Beutlich is the executive director for the 
Northern Border within the Customs and Border Protection Office 
of Air and Marine. The region has 8 air and marine branches, 
with over 500 employees, 51 aircraft, and 48 vessels. 
Previously, Mr. Beutlich served as the director of air 
operations for the Miami Air and Marine Branch.
    Prior to his service in Miami, Florida, where I am from, 
Mr. Beutlich served in Washington, DC, for the Department of 
Homeland Security integration staff, where he was involved in 
the National Response Plan, principal Federal official cadre, 
and National special security events.
    Mr. Beutlich served in both the United States Army and the 
Naval Reserves. Director Beutlich received his bachelor's of 
science from Loyola University in Chicago and an MBA from the 
University of Phoenix.
    Welcome, all of you. Your entire written statements will 
appear in the record. I ask that you each summarize your 
testimony for approximately 5 minutes, and Mr. Velasquez, you 
are now recognized to testify.
    Thank you again, sir.

  STATEMENT OF ANDREW VELASQUEZ, III, REGIONAL ADMINISTRATOR, 
                         REGION V, FEMA

    Mr. Velasquez. Thank you.
    Good morning, Chairman Bilirakis, Congressman Clarke. My 
name is Andrew Velasquez. I am the regional administrator for 
the U.S. Department of Homeland Security's Federal Emergency 
Management Agency Region V office in Chicago, Illinois.
    It is a pleasure to appear before you this morning and, 
indeed, an honor to discuss the critical Federal, State, and 
local coordination near the United States Northern Border. No 
matter how prepared communities may be, disasters can and do 
strike anywhere and at any time.
    Within the United States, the response to and recovery from 
major emergencies and disasters is managed and coordinated 
under the National Response Framework, otherwise known as the 
NRF. A major tenet of the NRF is that response to all 
emergencies and disasters begins at the local level.
    When those governments become overwhelmed, they can seek 
the additional assistance from the State. If the State becomes 
overwhelmed and needs support, the Governor can request 
assistance from the Federal Government.
    Stricken jurisdictions also have the option of activating 
intrastate or interstate mutual aid assistance agreements with 
their neighbors. Many jurisdictions located along the borders 
of Canada and Mexico have already entered into emergency 
assistance agreements, anticipating the likely need to share 
resources such as personnel and equipment that can quickly help 
save lives and protect property.
    Although States, provinces, and territories are capable of 
managing most emergencies, there are times when disasters 
exceed the State, provincial, or territorial resources and, 
therefore, require outside assistance. Because of the proximity 
of resources, cross-border mutual aid assistance can be readily 
available, timely, and/or operationally expedient.
    In the mid-1990s, the Regional Emergency Management 
Advisory Committees were established for the purpose of 
supporting development of regional mutual assistance agreements 
between the United States and Canadian provinces. The Central 
Regional Emergency Management Advisory Committee, CREMAC, 
comprises FEMA Regions II, III, and V, including the States of 
Michigan, Minnesota, New York, Ohio, Pennsylvania, and 
Wisconsin, and the Canadian provinces of Ontario and Quebec.
    The co-chairs of CREMAC rotate between U.S. and Canadian 
regional emergency management organizations. FEMA's role in 
coordinating these State-province agreements is found in 
Section 612 of the Stafford Act, which directs the FEMA 
Administrator to provide assistance to States in the 
development of mutual aid agreements with neighboring 
countries.
    On October 26, just this past Wednesday, FEMA Region V in 
Chicago hosted a Central and Prairie Region emergency 
management meeting to work towards consensus on the latest 
version of a mutual assistance agreement. Representatives from 
CREMAC; the Prairie Region Emergency Management Advisory 
Committee, PREMAC; the National Emergency Management 
Association, NEMA; FEMA; and the Canadian Council of Emergency 
Management Organizations discussed the content of that 
agreement, potential issues and challenges, as well as the 
ultimate approval process.
    The representatives agreed to changes in the draft language 
and will continue working on additional language related to 
liability and licensure. Once final, States and provinces will 
seek to have the agreement provided and approved by their 
respective governments.
    This current draft is a U.S. State-to-Canadian province 
agreement that encourages and authorizes cooperative planning, 
training, and exercises so that jurisdictions located on both 
sides of the border are better prepared for a disaster. Through 
the agreement, any resource can be made available from one 
member State or province to another. This assistance would be 
provided regardless of the initiating event, whether natural, 
such as a flood or tornado, to a man-made event, such as a 
terrorist attack or even a chemical spill.
    While our efforts currently focus on the development of 
cross-border State-to-province agreement along the central 
region of the Northern Border, the Eastern Regional Emergency 
Management Advisory Committee has developed its own agreement, 
known as the International Emergency Management Assistance 
Compact. The IEMAC is now a formal, Congressionally-ratified 
agreement with bylaws and operations manual that includes five 
eastern Canadian provinces and six U.S. States.
    Similarly, the Western Regional Emergency Management 
Advisory Committee, WREMAC, has a Congressionally-ratified 
agreement, the Pacific Northwest Emergency Management 
Arrangement, signed in 1998. Our efforts along the central 
U.S.-Canadian border will solidify a continuous Northern Border 
mutual aid agreement between our two countries that strengthens 
our response capabilities, our resilience, and the 
survivability of our residents.
    In conclusion, the concept of mutual aid has been the 
foundation of emergency response for decades. When a disaster 
occurs, the rate of survivability is greatly increased by an 
effective and timely response by trained emergency responders. 
Whether these responders come from the United States, Canada, 
or Mexico is irrelevant. What is critical, though, is that 
these professional lifesavers have the ability to share 
knowledge, equipment, and expertise and are ready to function 
as a team during a crisis.
    Thank you again for the opportunity to appear before you 
today. I am happy to answer any questions that you may have.
    [The statement of Mr. Velasquez follows:]

              Prepared Statement of Andrew Velasquez, III
                            October 28, 2011

                            I. INTRODUCTION

    Chairman Bilirakis, Representative Clarke, and distinguished 
Members of the subcommittee: My name is Andrew Velasquez and I am the 
Regional Administrator for the Federal Emergency Management Agency's 
(FEMA) Region V Office located in Chicago, Illinois. It is an honor to 
appear before you today on behalf of FEMA to discuss the critical 
Federal, State, local coordination taking place along the United States 
Northern Border. FEMA recognizes that we are not the Nation's whole 
emergency management team; rather we are part of the team. This team 
includes not only Federal, State, local, and Tribal governments, but 
also private, non-profit, and citizen partners--the Whole Community. 
This Whole Community approach emphasizes the importance of working with 
all partners in order to effectively prepare for, protect against, 
respond to, recover from, and mitigate all hazards. In some cases, the 
Whole Community also includes our international partners.
    ``In my testimony today, I will describe and review the Federal, 
State, and local roles in responding to emergencies, as well as the 
current state of cross-border emergency assistance agreements at each 
level of government, with a particular focus on how FEMA is working to 
improve preparedness along the northern border, specifically here in 
the central region.''

II. A REVIEW OF THE EMERGENCY RESPONSE SYSTEM AND PROCESS AND THE ROLE 
                         OF FOREIGN ASSISTANCE

    Regardless of how prepared communities may be for an emergency, 
disasters can strike anywhere and at any time. Within the United 
States, the response to and recovery from major emergencies and 
disasters are managed and coordinated under the National Response 
Framework (NRF) and most recently the National Disaster Recovery 
Framework (NDRF). A major tenet of that framework is that all 
emergencies and disasters are local. Local governments are the first to 
respond to a wide variety of events. When those governments become 
overwhelmed they can seek additional assistance from the State. In some 
circumstances, when the State becomes overwhelmed and needs assistance, 
the Federal Government can be called upon to provide assistance where 
needed. While this is the standard process for domestic incident 
response, jurisdictions located along the borders with Canada and 
Mexico may also find it necessary to enter into emergency assistance 
agreements, allowing the cross-border sharing of additional critical 
resources (personnel and equipment) that can quickly help protect 
property and save lives.
Local Governments
    Local emergency response personnel, including first responders, 
public health and medical providers, emergency management officials, 
public works, and other groups within the community, are typically the 
first to detect a threat or hazard, and respond to it. They are often 
the first to arrive, the last to leave, and play a major role in 
leading the jurisdiction's recovery efforts.
    Local senior officials and their emergency managers create and 
maintain a foundation for an effective response. They organize and 
integrate their capabilities and resources with neighboring or county 
jurisdictions, the State, and non-governmental partners, including the 
private sector. All these entities form collaborative partnerships and 
resource capabilities which local governments can use during 
emergencies.
    While intra-state and inter-state mutual aid agreements are 
commonplace between local governments and their neighbors throughout 
the United States, many Northern Border cities and counties have mutual 
aid agreements with their international cross-border counterparts. 
Mutual aid exists today along the border at the local level between 
cities such as Port Huron, Michigan and Sarnia, Ontario in Canada and 
many others. Many of these have a long history dating back to the 
1960s. These agreements normally provide mutual aid for fire and 
emergency medical services (EMS). The agreements are only between 
specific cities where the closest support lies across the border; e.g. 
Port Huron & Sarnia. Items normally covered in the agreement include 
how requests for assistance are coordinated, command and control 
operations, liability, reimbursement expectations, duration of the 
agreement and joint training.
States and Territories
    States and territories have the primary responsibility to protect 
the public health and welfare of the people living within their 
jurisdiction. Should local and county governments become overwhelmed, 
State resources are the closest line of support to those impacted by 
incidents.
    The role of the State government is to supplement local efforts 
before, during, and after an event, providing and coordinating 
resources and capabilities from throughout the State. They have 
significant resources of their own, including State emergency 
management and homeland security agencies, mutual aid programs, the 
National Guard, and a host of other State agencies that can bring 
specialized support. If a State anticipates that the response to an 
event may exceed its resources and capabilities, the Governor can 
request additional assistance from other States through mutual aid and 
assistance agreements such as the Emergency Management Assistance 
Compact (EMAC) or from the Federal Government--often in the form of a 
Stafford Act declaration. EMAC, established in 1996, is a system that 
allows U.S. States to transfer resources, such as personnel, equipment, 
and commodities during Governor-declared states of emergencies.
    However, in some circumstances it may be necessary for States along 
the Northern Border and outside of the Federal response process to seek 
assistance directly from their Canadian provincial counterparts. 
Although States, provinces, and territories are capable of managing 
most emergencies, there are times when disasters exceed the State, 
provincial, or territorial resources and require outside assistance. 
Even when EMAC or Federal assistance is warranted, cross-border mutual 
aid assistance may be more readily available, timelier, less expensive, 
and/or operationally expedient. FEMA is supportive of these types of 
cross-border mutual aid agreements and actively assists States, through 
regional emergency management committees and the National Emergency 
Management Association (NEMA) to develop and win approval for these 
pre-negotiated assistance agreements.
    FEMA's role in coordinating State/province agreements is based on 
section 612 of the Stafford Act, mutual aid pacts between States and 
neighboring countries, which states that ``the Director (now 
Administrator of FEMA) shall give all practicable assistance to States 
in arranging, through the Department of State, mutual emergency 
preparedness aid between the State and neighboring countries.''
    In the mid-1990's, Regional Emergency Management Advisory 
Committees were established as four geographically organized entities: 
Eastern Regional (EREMAC), Prairie Regional (PREMAC), Central Regional 
(CREMAC) and Western Regional Emergency Management Advisory Committees 
(WREMAC).
    The purpose of these four groups is to advance the development of 
regional cross-border emergency preparedness and response arrangements. 
The CREMAC comprises FEMA Regions II, III and V, including the States 
of Michigan, Minnesota, New York, Ohio, Pennsylvania, and Wisconsin and 
the Canadian Provinces of Ontario and Quebec. The co-chairs of CREMAC 
rotate between State and provincial emergency managers. Public Safety 
Canada and FEMA are non-voting members.
    FEMA Regions II and V have been working with CREMAC members to 
build consensus on a cross-border mutual aid agreement. Recently, NEMA 
and the Canadian Council of Emergency Management Organizations have 
been working together to reach agreement on draft language for a 
Central Region Emergency Management Assistance Agreement (CREMAA) and a 
Prairie Region Emergency Management Advisory Agreement (PREMAA). The 
draft CREMAA/PREMAA is a U.S. State-to-Canadian province agreement 
which will better align State and provincial emergency management 
mandates. CREMAA/PREMAA also encourages and allows cooperative planning 
and exercises so jurisdictions located on both sides of the border are 
better prepared for a disaster regardless of the initiating event and 
the appropriate response and recovery activities. Through the CREMAA/
PREMAA, any resource, whether personnel or equipment, could be made 
available from one member state to another. The draft agreement has 
been sent to the States and provinces of both the CREMAA and PREMAA 
organizations.
    On October 26, 2011, FEMA Region V hosted a Central and Prairie 
region emergency management meeting to gain consensus of the latest 
iteration of the CREMAA/PREMAA agreement. Representatives from CREMAC, 
PREMAC, NEMA, FEMA, and the Canadian Council of Emergency Management 
Organizations discussed the content of the agreements, potential issues 
and challenges, as well as the ultimate approval process.
    While a cross-border State-to-province agreement is being developed 
for use along the central region of the Northern Border, the Eastern 
Regional Emergency Management Advisory Committee, similar to the CREMAC 
and also known as the International Emergency Management Group (IEMG), 
has developed its own agreement known as the International Emergency 
Management Assistance Compact (IEMAC). The effort to build this compact 
began almost 15 years ago when the Premiers and Governors strengthened 
a 1975 agreement between the State of Maine and the Province of New 
Brunswick. The IEMAC is now a formal, congressionally ratified 
agreement with bylaws and an operations manual that includes five 
eastern Canadian Provinces and six U.S. States.
    Similarly, the Western Regional Emergency Management Advisory 
Committee (WREMAC) has a Congressionally-ratified agreement, the 
Pacific Northwest Emergency Management Arrangement (PNEMA) signed in 
1998. Under the agreement, WREMAC coordinates cross-border mutual 
disaster preparedness, response, and recovery among two Canadian 
Provinces and three U.S. States.

 III. THE FEDERAL ROLE IN DOMESTIC U.S. DISASTERS, FOREIGN ASSISTANCE, 
                AND THE INTERNATIONAL ASSISTANCE SYSTEM

    The Federal Government maintains significant capabilities and 
resources that can support a stricken State. For events where the 
Federal Government has primary jurisdiction or authorities (e.g., on a 
military base or a Federal facility or lands), Federal departments or 
agencies may be the first responders and the first line of defense, 
coordinating activities with State, territorial, Tribal, and local 
partners. The Federal Government also maintains its own working 
relationships with the private sector and other non-governmental 
partners.
    In accordance with the Homeland Security Act of 2002 and Homeland 
Security Presidential Directive (HSPD) 5, the Secretary of Homeland 
Security is the Principal Federal Official for domestic incident 
management. While DHS maintains the responsibility for the overall 
incident management, a number of Federal departments and agencies have 
their own authorities for leading Federal response to certain emergency 
and disaster events. As the leader of the Federal incident management 
team, DHS coordinates with the entire Federal family to surge Federal 
support at all levels of the response.
    In some circumstances, such as a catastrophic event, the Federal 
Government, through the U.S. Department of State, may seek the 
assistance of foreign governments such as Canada or Mexico. In order to 
enable that coordination of assistance at the Federal level, the United 
States Government created the International Assistance System (IAS). 
This system establishes standard operating procedures for requesting 
specific international assistance when specific resources are 
unavailable in the United States, reviewing foreign government offers 
for acceptance or declination, and managing the logistics of 
transporting, receiving, and distributing international donations.
    FEMA, the Department of State, and the United States Agency for 
International Development (USAID) coordinate the IAS to address both 
the critical needs of a response operation as well as the foreign 
policy objectives of the United States. As such, the IAS applies only 
to formal transactions between the United States and foreign 
governments or international organizations, during a large-scale 
domestic disaster, following a Stafford Act declaration.
    In addition to mutual aid agreements, the United States Government 
and government of Canada have a long history of cooperation in the area 
of emergency management. There are a number of Federal level bi-
national agreements to facilitate information exchange, advances in 
technology, preparedness, and mutual assistance during cross-border 
incidents.
    For example, under the U.S.-Canada Agreement on Emergency 
Management Cooperation, FEMA co-leads two bi-national working groups to 
address challenges to Federal-to-Federal mutual aid assistance, and 
identify opportunities to jointly train and exercise. To further 
enhance this bi-national partnership, President Obama and Prime 
Minister Harper signed a joint declaration this year called ``Beyond 
the Border: A Shared Vision for Perimeter Security and Economic 
Competitiveness.'' Under this declaration, FEMA and the interagency are 
partnering with Canada to prepare for and respond to bi-national 
Chemical, Biological, Radiological, Nuclear and Explosive (CBRNE) 
events; address barriers to bi-lateral communications interoperability; 
and enhance collective preparedness for health security threats.
    Additionally, the Canada/U.S. Reciprocal Forest Fire Fighting 
Arrangement provides for the Secretary of Agriculture and the Secretary 
of the Interior to enter into arrangements with foreign fire 
organizations for assistance in wildfire protection. The Canada-U.S. 
Joint Inland Pollution Contingency Plan provides for a cooperative 
mechanism for preparedness for and response to polluting incidents that 
cause, or may cause, damage to the environment along the inland 
boundary.

                             IV. CONCLUSION

    In conclusion, the concept of mutual aid has been the foundation of 
emergency response for decades. When a disaster occurs, the ability to 
save lives and protect property is greatly increased by an effective 
and timely response by trained emergency responders. It is critical 
that these professional life savers--whether they come from United 
States, Canada, or Mexico--have the ability to share knowledge, 
equipment, expertise, and are ready to function as a team during times 
of crisis.
    Thank you again for the opportunity to appear before you today. I 
am happy to answer any questions the subcommittee may have.

    Mr. Bilirakis. Thank you, Administrator.
    Now I will recognize Admiral Parks. Again, you are 
recognized, sir, for approximately 5 minutes.

  STATEMENT OF MICHAEL PARKS, NINTH DISTRICT COMMANDER, U.S. 
                          COAST GUARD

    Admiral Parks. Well, good morning, Mr. Chairman and 
Congressman Clarke.
    With your permission, I ask that my written statement be 
inserted into the record.
    It is a great pleasure to be with you today, particularly 
alongside my good friends and partners, Andrew Velasquez and 
John Beutlich. I would like to just make a few brief remarks 
and then look forward to your questions.
    When asked to describe the Great Lakes operating 
environment, I sum it up as a system, a system that is shared 
and that is not just saltless, but extremely sensitive and one 
that poses unique seasonal operating challenges.
    First, the Great Lakes are a continuous and interconnected 
maritime system with a diverse range of maritime environments 
from open seas to narrow rivers to locks, bridges, tunnels, and 
critical infrastructure. It is a complex system that requires 
multi-dimensional efforts to ensure its safety, security, and 
stewardship.
    Second, the Great Lakes are truly a shared internal waters 
of sovereign nations. When you consider the fact that their 
governance is shared among tribal interests, eight States, 
three Canadian provinces, and hundreds of county and local 
stakeholders across the region, it is clear that building 
partnerships is not a mission luxury. It is an absolute 
necessity.
    Third, the Great Lakes form the largest fresh water system 
on Earth. They are not just a system or a domain. They are an 
extremely sensitive and invaluable natural resource. They are 
truly a bi-national treasure.
    Last, the Great Lakes pose unique seasonal challenges. 
Waterways that normally flourish with commercial and 
recreational traffic can become restricted by unrelenting ice 
in the winter. Borders that normally require a boat to cross 
become accessible by vehicle or even on foot.
    Preparedness and response in the maritime environment can 
be a tough job in ideal conditions. When that environment 
freezes, every aspect of our operations becomes more difficult.
    Mr. Chairman, within this environment, I believe there are 
three principles that guide our efforts to enhance border 
preparedness and response in the Great Lakes region, and they 
are shared awareness, synchronized goals, and seamless 
operations.
    First, we must maximize shared awareness. We must 
understand the common threats and be efficient at sharing 
information and intelligence with the full range of partners 
that can contribute to our success. With all the environmental 
challenges that we face, we can't afford cylinders of 
excellence. We need systems of shared situational awareness.
    Second, we must continually work to establish synchronized 
goals. We share the border environment with a diverse and 
complex array of regional neighbors. We must have mechanisms to 
synchronize our collective goals. Now, obviously, we do not all 
have the same mission priorities or responsibilities. But we 
must be able to navigate across those responsibilities because 
no agency or entity can do it alone.
    Third, we must be able to seamlessly operate. The tyranny 
of time and distance, particularly in the maritime border of 
the Great Lakes, demands agile and coordinated responses. 
Together, Federal, State, and local partners bring to bear 
tremendous amounts of authority and responsibility. We must 
continually work to integrate those assets to assure a seamless 
response to any threat.
    Mr. Chairman, the glue that binds these three principles 
together is partnerships. They are a critical component to 
Coast Guard mission success--I would offer DHS success and our 
National success--and I would like to highlight just a few 
examples of these partnerships in action.
    From staffing the regional coordination center, the RCC, to 
detailed preparedness planning and execution for flood response 
in the Midwest, we work with FEMA nearly every single day. As 
you know well, we can't wait until an emergency to get to know 
one another.
    Working together across the Great Lakes and with our 
Canadian, State, and local partners, I know we are better 
prepared to respond to a full range of contingencies because of 
our strong operational partnership with FEMA.
    Over the past 18 months, we have made tremendous progress, 
solidifying our relationship with CBP and ICE across the Great 
Lakes. Just last month, the Coast Guard, Customs and Border 
Protection, and Immigration and Customs Enforcement leaders 
from across the Great Lakes, including John and I, signed an 
approved standard operating procedures for coordinated air and 
maritime operations across the Great Lakes.
    It establishes guidance for sharing of information, on-
scene operational coordination, and the sharing of surface and 
aviation patrol schedules to help ensure a unity of effort 
across this region. And locally, our area maritime security 
committees continue to deliver outstanding results in managing 
the full spectrum of maritime security preparedness and 
response missions, very similar to what you engaged in this 
morning.
    In August, the area maritime security committee here in 
Detroit conducted a full-scale exercise that brought together 
70 partner agencies. Federal, State, local, U.S., and Canadian 
partners responded to a simulated terrorist attack on a ship on 
the Detroit River between Detroit, Michigan, and Windsor, 
Ontario.
    The scenario, in which many of the 500 passengers were 
injured and over 800,000 gallons of simulated oil were spilled, 
enabled those agencies to to work side-by-side to improve their 
response and recovery capabilities. I would like to thank 
Congressman Clarke for providing such realism at the press 
conference.
    Mr. Clarke. You are welcome.
    [Laughter.]
    Admiral Parks. Mr. Chairman, thank you very much for your 
time and again for your focus on the Great Lakes as part of 
your important work. The Coast Guard looks forward to 
continuing to contribute to the effort and building a system of 
shared awareness and synchronized goals such that we can 
seamlessly operate together for safety, security, and 
stewardship of the Great Lakes.
    Thank you again for this opportunity, Mr. Chairman, and I 
look forward to your questions.
    [The statement of Admiral Parks follows:]

                  Prepared Statement of Michael Parks
                            October 28, 2011

    Good morning Mr. Chairman and distinguished guests. Thank you for 
the opportunity to appear before you today to discuss homeland security 
cooperation in the Great Lakes and along the shared maritime border of 
the United States and Canada.
    As Commander of the Ninth Coast Guard District, I oversee Coast 
Guard operations throughout the Great Lakes region, which includes 
overseeing four Coast Guard Sector Commands in Buffalo, NY, Detroit, 
MI, Sault Ste Marie, MI, and Milwaukee, WI, and two Coast Guard Air 
Stations in Traverse City, MI and Detroit, MI, along with a fleet of 
nine cutters.
    The Ninth Coast Guard District enjoys a unique vantage point with 
mission responsibility from Lake of the Woods, MI, to Massena, NY. The 
Great Lakes constitute a diverse and challenging maritime environment 
that exemplifies the necessity for fully integrated preparedness, 
response, and communications. The Great Lakes first is a salt-less and 
sensitive system; it is shared and seasonally challenging. The Great 
Lakes are a complex, interconnected, and continuous maritime system 
with a wide range of environments--from open seas much more like oceans 
than lakes--to narrow rivers challenging even experienced navigators 
and providing easy border access. More than just an operating 
environment--the Great Lakes are a unique natural resource, and a bi-
national treasure. Together they form the largest fresh-water system on 
earth. With so many dependent on the Great Lakes as a resource, we 
treat all spills as significant.
    The Great Lakes are shared by staunch allies, vital economic 
partners, and steadfast friends. With roughly 10 percent of the U.S. 
population and more than 30 percent of the Canadian population living 
in the Great Lakes basin, local issues are often National, and 
typically bi-national, issues. Roughly 300,000 people and $1.5 billion 
in trade cross our regional border with Canada each and every day. Once 
a commercial vessel enters the Great Lakes, it has equal opportunity 
access to both the United States and Canada. A vessel may cross the 
border 17 times or more while transiting the Great Lakes. They are 
shared waters of sovereign nations. Combined with tribal interests, 
eight States, three Canadian provinces, and hundreds of county and 
local stakeholders across the region--the jurisdictional complexity is 
enormous. Combined response protocols and shared capabilities across 
multiple jurisdictions are a mission necessity. Whether it is bridges, 
pipelines, power grids, or communication networks--critical 
infrastructure in the region is shared much more often than it is owned 
outright by any one State, community, or even nation.
    There are few better examples of the shared nature of our maritime 
infrastructure than in the Detroit-Windsor Corridor. The Detroit River 
is a critical linkage for the entire Great Lakes system with the 
majority of foreign and domestic ships either arriving at or passing by 
the Port of Detroit. This transit corridor for the Great Lakes system 
supports the movement of more than 106 million tons of commodities 
between U.S. Great Lakes ports, and 16 million tons in Detroit alone. 
It accounts for approximately 10 percent of all U.S. waterborne 
domestic traffic. On average, there are 40 daily commercial ship 
movements in the Detroit and St. Clair Rivers along the international 
border. These movements occur past and among more than 50 U.S. and 
Canadian waterfront facilities. Cross-border operations are a daily 
reality and necessity. The Coast Guard small boat station in Belle 
Isle--just outside metropolitan Detroit--is only yards away from our 
border with Canada and they cannot depart their dock without crossing 
into Canadian waters.
    In August, we conducted a full-scale exercise in this critical 
interagency and international waterway. The exercise brought together 
70 partner agencies--Federal, State, local, U.S., and Canadian--to 
respond to a simulated terrorist attack on a ship on the Detroit River 
between Detroit, Michigan, and Windsor, Ontario. The scenario, in which 
many of the 500 passengers were injured and 800,000 gallons of 
simulated oil were spilled, enabled these agencies to work side-by-side 
to improve their response and recovery capabilities. This exercise is 
just one example of the many that we conduct throughout the Great Lakes 
region, ensuring we and our partners are adequately prepared and can 
work together to counter the threats we face.
    The Great Lakes operating area presents unique seasonal operational 
challenges. In some cases, borders that normally require a boat to 
cross can be accessed by vehicle or foot. Waterways that normally 
flourish with commercial and recreational vessel traffic can become 
restricted by unrelenting ice, requiring significant effort to keep 
open. Maritime preparedness and response is a complicated endeavor. It 
is made more so when that maritime domain becomes impassable by 
traditional patrol and response assets. When water freezes, oil spill 
response and recovery, port security patrols and deterrence, search and 
rescue, small boat, and flight operations all become more difficult.
    Coast Guard combines several maritime functions--from regulatory 
and rescue to security and stewardship into one Federal agency. The 
Coast Guard applies its authorities and allocates resources in a way 
that reduces risk and provides the level of reliable response our 
communities expect while ensuring we remain adaptive and flexible to 
respond to changing risks within an always dynamic maritime 
environment. The Service succeeds by empowering its people to act--to 
understand the resources available to them and apply those resources 
toward maritime risks and requirements.
    Seasonal demands and limitations pose a special challenge to 
mission execution. In the winter, our crews are challenged to sustain 
qualifications due to ice conditions. There is no other place in the 
Coast Guard where we expect and train our crews to respond not just on 
``soft water'' but also ``hard water.'' The Coast Guard must be 
creative and relentless--and pursue technology where appropriate--to 
ensure our crews master their respective crafts.
    Strategic partnerships are vital component of Coast Guard mission 
success. The Coast Guard cannot meet every mission priority alone. Our 
missions demand that we seek out sustainable partnerships at every 
level of maritime interest. The complexity and shared interests of the 
Great Lakes region has spurred many longstanding regional partnerships. 
Such initiatives should be strengthened in order to harmonize mutually 
supportive goals. And where needed, the Coast Guard should grow new 
partnerships. The Coast Guard adds value with our unique combination of 
maritime authorities and capabilities that can bring civil, law 
enforcement, and military communities together in shared solutions.
    Partnerships are particularly important here in the Great Lakes. 
The United States--much less the Coast Guard--does not ``own'' the 
entirety of the Great Lakes system in which we operate. The Coast Guard 
deals with the challenges, complexities, and opportunities of the 
international border every day and is well-suited to help inform 
National maritime policy with Canada. Successful mission execution in 
the Great Lakes requires effective bi-national cooperation and 
governance.
    President Obama and Prime Minister Harper recently issued the 
``Beyond the Border'' declaration articulating a shared vision for 
perimeter security and economic competitiveness. It recognizes the 
interdependence of our security and economic relationships with Canada. 
From search-and-rescue to pollution response and ice-breaking--the 
Coast Guard has solid partnerships and time-tested procedures to work 
seamlessly with Canada. We need to bring that same collaborative spirit 
and trust to security and law enforcement concerns.
    A number of bilateral initiatives already exist. For example, the 
Integrated Border Enforcement Team (IBET) remains a critical 
collaboration mechanism across our shared border with Canada. Each IBET 
establishes an integrated, bi-national law enforcement capability from 
both Canada and the United States. These intelligence-led partnerships 
facilitate information sharing and operational collaboration to detect, 
deter, and interrupt cross-border threats and criminal enterprises. Of 
the 15 IBET regions across our shared border, seven are in the Great 
Lakes area of responsibility. There are five core IBET agencies: The 
Royal Canadian Mounted Police, U.S. Coast Guard, Canada Border Services 
Agency, U.S. Immigration and Customs Enforcement (ICE), and U.S. 
Customs and Border Protection (CBP). These core agencies liaise with 
provincial, State, and local law enforcement partners to help assure 
seamless and integrated operations in countering cross-border crime. 
Similarly, through our partnership with Transport Canada (TC), the 
Joint Initial Verification Team (JIVT) enables Coast Guard marine 
inspectors to work alongside TC personnel to visit hundreds of foreign 
flagged vessels each year in Montreal, Canada. These visits are 
critical to ensuring regulatory compliance of vessels entering the 
Great Lakes system.
    With 42 Federally-recognized Tribal nations in the eight States 
that comprise the Great Lakes region, Tribal partnerships are 
indispensable to mission execution. Many of these first nations have a 
strong maritime heritage and history that we must respect and 
acknowledge if we are to be successful. I'm especially proud of our 
efforts to enhance the safety of commercial Tribal fishing. We operate 
together with the Chippewa Ottawa Resource Authority (CORA) and Great 
Lakes Indian Fish and Wildlife Commission (GLIFWC) to enhance the 
safety of Tribal fishing vessels. CORA and GLIFWC enforcement officers 
attend Coast Guard fishing vessel safety training and we regularly 
conduct joint vessel examinations and waterborne patrols.
    Similarly, we are continuing work to ensure that the Integrated 
Cross-border Maritime Law Enforcement Operations framework agreement 
signed by Secretary Napolitano in 2009 is poised for success upon final 
approval by Canada's parliament. Last April, training for Coast Guard 
and CBP officers also involved the St. Regis Tribal Police Department. 
Providing law enforcement presence on the Mohawk Akwesasne Reservation 
along the St. Lawrence River in upstate New York, they are critical 
partners to ensuring adequate preparedness and response in an area of 
vital strategic interest to the entire Great Lakes region.
    The Department of Homeland Security (DHS) recently promulgated a 
Maritime Operations Coordination Plan. It builds on the success of Area 
Maritime Security Committees and creates regional coordination 
mechanisms--ReCoMs--for the express purpose of enhancing maritime 
operational coordination. In the Great Lakes, the Coast Guard has 
already solidified a Great Lakes ReCoM that strengthens partnerships 
with our DHS peers. It includes the recent renewal and approval of 
Standard Operating Procedures for Coordinated Air and Maritime 
Operations throughout the Great Lakes. The Great Lakes ReCoM unifies 
the effort of the entire Coast Guard Ninth District with the CBP Office 
of Air and Marine Northern Region, four CBP Border Patrol Sectors, four 
CBP Offices of Field Operations, and five ICE Homeland Security 
Investigation (HSI) regions. It is the first time Great Lakes DHS 
leaders have memorialized such a partnership and provided written 
guidelines to enhance operational effectiveness irrespective of 
individual agency boundaries. It will be strengthened in the weeks and 
months ahead by the involvement of Canadian, State, Tribal, and local 
partners.
    Mr. Chairman, there is hard work to be done. But it is work the 
Coast Guard can and will do to accomplish its mission. That is the true 
value of the Coast Guard in the Great Lakes and beyond--to apply our 
unique combination of maritime functions to those duties assigned, 
build sustainable mission partnerships, and to do so to the very best 
of our ability every single day. The Coast Guard cannot eliminate every 
maritime risk. But through the active involvement of hundreds of 
partners with a stake in the safety, security, and stewardship of the 
maritime domain, the Coast Guard is committed to deter incidents before 
they happen and ensure the Coast Guard is well-prepared to respond to 
them should they occur.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

    Mr. Bilirakis. Thank you, Admiral.
    Now, Mr. Beutlich, you are recognized for 5--approximately 
5 minutes. Thank you, sir.

STATEMENT OF JOHN S. BEUTLICH, DIRECTOR OF THE NORTHERN REGION, 
  OFFICE OF AIR AND MARINE, U.S. CUSTOMS AND BORDER PROTECTION

    Mr. Beutlich. Thank you, sir.
    Chairman Bilirakis, Representative Clarke, and 
distinguished Members of the subcommittee, it is a privilege 
and an honor to appear before you today to discuss the work of 
U.S. Customs and Border Protection, particularly the tremendous 
dedication of our men and women in the field, both at and 
between the ports of entry.
    Integral to these efforts is the cooperation with our 
Canadian partners, State, local, Tribal agencies, and other 
elements of the Department of Homeland Security. I would like 
to begin by expressing my gratitude to Congress for its 
continued support of the mission and people of Customs and 
Border Protection. We greatly appreciate your efforts and 
assistance, and I look forward to continuing to work with you 
on these issues in the future.
    As America's frontline border agency, Customs and Border 
Protection is responsible for securing America's borders 
against threats while facilitating legitimate travel and trade. 
To do this, CBP has deployed a multilayered, risk-based 
approach to enhance the security of our borders while 
facilitating the lawful flow of people and goods entering the 
United States.
    This layered approach to security reduces our reliance on 
any single point or program that could be compromised and 
includes close coordination with DHS partner agencies, with 
other U.S. interagency partners, and with our Canadian 
counterparts. Close coordination with our partners ensures our 
zones of security extend outward and that our physical border 
is not our first or last line of defense, but one of many 
layers.
    There are many--there are a number of ways in which the 
Northern Border is operationally distinct from other 
environments. The international boundary with Canada extends 
over 5,500 miles across both land and water, including the 
border of Alaska, and it is often described as the longest 
common nonmilitarized border between any two countries.
    It delineates two friendly nations with a long history of 
social, cultural, and economic ties that have contributed to a 
high volume of cross-border trade and travel amounting to more 
than $1 billion a day. The border is a diverse region 
consisting of major metropolitan centers, integrated bi-
national communities, numerous transit hubs, and vast regions 
with little or no population.
    Thickly forested mountainous areas with recreational trail 
networks provide avenues of cover for those seeking to cross 
the border illegally. The extensive commercial and 
transportation infrastructure along the border also provides 
avenues vulnerable to exploitation by traffickers and 
smugglers, including vehicular transportation, commercial and 
noncommercial air, rail, and maritime modes of transportation.
    The Great Lakes region consists of several large bodies of 
open water, as already mentioned by Admiral Parks, including 
the Great Lakes themselves and rivers along the border. The 
lakes are heavily used by boaters in the summer, ice fisherman 
and snowmobilers in the winter, and present unique border 
enforcement challenges as small vessels can potentially be 
exploited for illicit purposes.
    In the winter, sub-zero temperatures and significant 
snowfall provide a natural barrier along some portions of the 
border. While pedestrian and vehicle traffic are reduced during 
the winter, unlawful entries between the ports of entry 
utilizing snowmobiles are not unusual.
    When frozen, some rivers and streams become easy for 
smugglers to utilize for cross-border on foot or by snowmobiles 
or other modes of transportation. The spring thaw can cause 
impassably deep mud, enclosing them to commercial trucks, and 
tends to increase unlawful cross-border activity by all-terrain 
vehicles.
    We recognize the importance of partnerships, intelligence, 
and information sharing to the success of our mission. As such, 
we are engaged in several National initiatives to increase 
security on the Northern Border, such as the IBET and BEST, 
which comprise Customs and Border Protection, U.S. Customs and 
Immigration, Royal Canadian Mounted Police, and Canadian Border 
Security--or Services Agency. By incorporating this integrated 
mobile response capability that these organizations provide, 
they allow law enforcement agencies with a multiplier that 
maximizes border enforcement efforts.
    Within the Detroit sector, IBET cases have resulted in 
multiple arrests, most prominently in the Detroit stations area 
of responsibility, reflecting an increased level of direct 
coordination between the stations and our Canadian partners at 
the tactical level.
    In August this year, CBP participated in a Coast Guard-led, 
full-scale exercise to test first responders to a simulated 
mass rescue operation. The 2-day exercise focused on 
notification, response, public affairs, and recovery operations 
within a unified command structure involving multi-
jurisdictional, multinational agencies.
    The participants included CBP, Coast Guard, ICE, TSA, the 
U.S. Attorney's Office, FBI, Michigan State Police, Michigan 
National Guard, Detroit Police Department, the Wayne County 
Sheriff's Office, Macomb County Sheriff's Office, CBSA, and the 
Windsor, Ontario, Police Department. This type of partnership 
is an example of efforts to continue to build upon an already-
forged relationship among our law enforcement partners and 
Detroit area border communities.
    Additionally, CBP, in conjunction with CBSA and RCMP, 
completed a joint border threat assessment, which provides U.S. 
and Canadian policymakers, resource planners, and law 
enforcement officials with a strategic overview and significant 
threat along the U.S./Canadian border.
    In 2005, CBP created a robust information-sharing 
environment, known as ``BigPipe,'' which links equipped CBP 
aviation assets and information-sharing protocols to Federal, 
State, and Tribal law enforcement. This provides near real-time 
sensor data, which allows for numerous Federal, State, and 
local Tribal agencies during warrant presentations, controlled 
deliveries, search and rescue, and surveillance operations.
    An example would be earlier this year, live video streams 
via BigPipe enabled FEMA rapid needs assessment analyst teams 
to quickly determine the condition of levees during the 
flooding that occurred in the Mississippi River Valley.
    Chairman Bilirakis, Representative Clarke, I look forward 
to the opportunity to testify about the work of U.S. Customs 
and Border Protection and our efforts. I look forward to 
answering your questions at this time.
    Thank you.
    [The statement of Mr. Beutlich follows:]

                 Prepared Statement of John S. Beutlich
                            October 28, 2011

    Chairman Bilirakis, Representative Clarke, and distinguished 
Members of the subcommittee, it is a privilege and an honor to appear 
before you today to discuss the work of U.S. Customs and Border 
Protection (CBP), particularly the tremendous dedication of our men and 
women in the field, both at and between our ports of entry (POE). 
Integral to these efforts is the cooperation with our Canadian 
partners, State, local, and Tribal agencies, and the other elements of 
the U.S. Department of Homeland Security (DHS).
    I would like to begin by expressing my gratitude to Congress for 
its continued support of the mission and people of CBP. We greatly 
appreciate your efforts and assistance, and I look forward to 
continuing to work with you on these issues in the future.
    As America's front-line border agency, CBP is responsible for 
securing America's borders against threats, while facilitating 
legitimate travel and trade. To do this, CBP has deployed a multi-
layered, risk-based approach to enhance the security of our borders 
while facilitating the lawful flow of people and goods entering the 
United States. This layered approach to security reduces our reliance 
on any single point or program that could be compromised and includes 
close coordination with DHS partner agencies, with other U.S. 
interagency partners, and with our Canadian counterparts. Close 
coordination with our partners ensures our zone of security extends 
outward and that our physical border is not the first or last line of 
defense, but rather is one of many layers.

               NORTHERN BORDER ENVIRONMENT AND CHALLENGES

    There are a number of ways in which the Northern Border is 
operationally distinct from other environments. The international 
boundary with Canada extends over 5,500 miles across both land and 
water (including the border of Alaska), and it is often described as 
the longest common non-militarized border between any two countries. It 
delineates two friendly nations with a long history of social, 
cultural, and economic ties that have contributed to a high volume of 
cross-border trade and travel, amounting to more than a billion dollars 
a day. The border is a diverse region consisting of major metropolitan 
centers, integrated bi-national communities, numerous transit hubs, and 
vast regions with little or no population. Thickly forested, 
mountainous areas with recreational trail networks provide avenues and 
cover for those seeking to cross the border illegally. The extensive 
commercial and transportation infrastructure along the border also 
provides avenues vulnerable to exploitation by traffickers and 
smugglers, including vehicular transportation, commercial trucking, and 
commercial and non-commercial air, rail, and maritime modes of 
transportation.
    The Great Lakes region consists of several large bodies of open 
water, including the Great Lakes themselves, and rivers along the 
border. The lakes are heavily used by boaters in the summer and ice 
fisherman and snowmobiles in the winter, and present unique border 
enforcement challenges, as small vessels can potentially be exploited 
for illicit purposes. Seasonal changes affect the ease with which the 
Northern Border can be crossed; in general, winter allows the Border 
Patrol to focus on fewer points of egress than the summer, when much 
more of the border becomes passable.
    In the winter, sub-zero temperatures and significant snowfall 
provide a natural barrier along some portions of the border. While 
pedestrian and vehicle traffic are reduced during the winter, unlawful 
entries between the POEs utilizing snowmobiles are not unusual. When 
frozen, some rivers, lakes, and streams become easier for smugglers and 
others to utilize for crossing the border on foot, or by snowmobiles or 
other modes of transport, while other areas become treacherous with ice 
floes and are less traversable. The spring thaw can cause impassibly 
deep mud on some logging roads, thereby closing them to commercial 
truck traffic, and there tends to be an increase in unlawful cross-
border activities via all-terrain vehicles.

                      NORTHERN BORDER PARTNERSHIPS

    At CBP, we recognize the importance of partnerships, intelligence, 
and information sharing to the success of our mission, and as such, we 
are engaged in several National initiatives to increase security on the 
Northern Border. Our officers and agents provide support to the 
Integrated Border Enforcement Teams (IBET), comprised of U.S. and 
Canadian Federal, State/provincial, and local law enforcement 
personnel, and encompassing 15 regions along the Northern Border. The 
IBET concept was formalized in December 2001 with five core agencies: 
CBP, U.S. Coast Guard (USCG), U.S. Immigration and Customs Enforcement 
(ICE), Royal Canadian Mounted Police (RCMP), and the Canadian Border 
Services Agency (CBSA). IBETs operate as intelligence-driven 
enforcement teams designed to increase information and intelligence-
sharing capabilities among the appropriate U.S. and Canadian 
authorities. By incorporating integrated mobile response capability 
(e.g., air, land, and marine), the IBETs provide participating law 
enforcement agencies with a force multiplier that maximizes border 
enforcement efforts. Within the Detroit Sector, IBET cases have 
resulted in multiple arrests, most prominently in the Detroit Station 
area of responsibility, reflecting an increased level of direct 
coordination between the Stations and our Canadian partners at the 
tactical level. Our personnel additionally provide manpower to Border 
Enforcement Security Task Force (BEST) units, multi-agency teams which 
collaborate to identify, disrupt, and dismantle criminal organizations 
which pose significant threats to border security.
    In August of this year, CBP participated in a Coast Guard-led, 
full-scale exercise designed to test first responders to a simulated 
mass rescue operation, a transportation security incident, and a major 
oil spill on the Detroit River between Michigan and Ontario, Canada. 
The 2-day exercise focused on notification, response, public affairs, 
and recovery operations within a unified command structure involving 
multiple jurisdictional/multi-national agencies. The participants 
included CBP, USCG, ICE, Transportation Security Administration, the 
U.S. Attorney's Office, the Federal Bureau of Investigation, the 
Michigan State Police, the Michigan National Guard, the Detroit Police 
Department, the Wayne County Sheriff's Office, the Macomb County 
Sheriff's Office, CBSA, and the Windsor (Ontario) Police Department. 
This type of partnership effort continues to build upon an already 
forged relationship among our law enforcement partners and the Detroit 
area border community and has helped to strengthen our ability to 
respond to unexpected emergencies while maintaining border security.
    Additionally, CBP, in conjunction with CBSA and RCMP, completed a 
Joint Border Threat and Risk Assessment, which provides U.S. and 
Canadian policymakers, resource planners, and other law-enforcement 
officials with a strategic overview of significant threats along the 
border between the United States and Canada. The threat assessment 
encompasses a range of National security issues, including cross-border 
criminal organizations, drug trafficking and illegal immigration, the 
illicit movement of prohibited or controlled goods, agricultural 
hazards, and the spread of infectious diseases. The assessment also 
further highlights the commitment of the two countries to identify and 
mitigate potential threats along our shared border, where there is a 
potential of terrorism and transnational organized crime.

                  CBP RESOURCES ON THE NORTHERN BORDER

    Along the U.S. Northern Border, CBP processes more than 70 million 
international travelers and 35 million vehicles each year. Since the 
implementation of the Western Hemisphere Travel Initiative (WHTI) in 
June 2009, WHTI compliance along the Northern Border is at 
approximately 99 percent, allowing CBP to facilitate travel and focus 
on individuals who may pose a threat to National security. In addition, 
CBP annually makes approximately 6,000 arrests and interdicts 
approximately 40,000 pounds of illegal drugs at and between the POEs 
along the Northern Border. Although CBP typically defines the Northern 
Border region as the area between the United States and Canada, running 
from Washington through Maine and including the Great Lakes region, CBP 
also facilitates and ensures the security of travel and trade across 
the Alaska-Canadian border. On the Northern Border, CBP has 120 land 
border crossings and 17 ferry land crossings, eight Border Patrol 
Sectors, eight Air and Marine Branches, nine Coastal Marine Units and 
23 Riverine Marine Units to protect against the illegal flow of people 
and goods at and between the official POEs.
    Over the past 2 years, DHS has dedicated historic levels of 
personnel, infrastructure, and technology to the Northern Border. Since 
9/11, Border Patrol agent staffing on the Northern Border has increased 
by over 650 percent--from approximately 340 agents in 2001, to more 
than 2,200 agents today. At the POEs along the Northern Border, CBP's 
Office of Field Operations (OFO) has deployed more than 3,800 CBP 
Officers and Agriculture Specialists. We have developed and implemented 
a comprehensive training curriculum for these Officers and Agriculture 
Specialists, which includes comprehensive, advanced, on-the-job and 
cross-training courses, as well as routinely offering our front-line 
officers opportunities to further hone their skills through 
professional development training.
    CBP's Office of Air and Marine (OAM) has 158 Air and 121 Marine 
Interdiction agents deployed along the Northern Border. Since 2004, CBP 
has opened five strategically located Air Branches along the Northern 
Border in Washington, Michigan, Montana, New York, and North Dakota. In 
the maritime environment, since 2009, OAM has opened six new marine 
units on the Northern Border in New York, Ohio, Michigan, Pennsylvania, 
and Washington. Currently, CBP operates 29 coastal and 52 riverine 
vessels on the Northern Border. CBP has stationed 54 fixed-wing and 
rotary aircraft on the Northern Border, including two Unmanned Aircraft 
Systems (UAS) operating out of the Grand Forks Air Force Base in North 
Dakota.
    With the cooperation of the Federal Aviation Administration (FAA), 
CBP expanded its operational airspace along the Northern Border in 
January of this year, allowing CBP UAS operations from the Lake-of-the-
Woods region in Minnesota to the vicinity of Spokane, Washington, a 
distance of approximately 950 miles. UAS flight operations contribute 
significantly to situational awareness in areas that are difficult to 
reach by other operational elements, a critical capability in difficult 
terrain along the Northern Border.
    As part of a multi-layered approach to secure America's borders, 
CBP has also greatly improved our technological capabilities on the 
Northern Border. CBP has deployed two mobile surveillance systems (MSS) 
to provide added radar and camera coverage in the Spokane and Detroit 
Sectors, and installed additional remote video surveillance systems 
(RVSS) in the Detroit and Buffalo Sectors, among other technologies.
    CBP has also established the Operational Integration Center (OIC) 
located at Selfridge Air National Guard Base in Harrison Township, 
Michigan. The OIC is a demonstration project, involving the application 
of personnel and technology to enhance border security and situational 
awareness for CBP and its mission partners in the Detroit region, a 
critical area of the Northern Border. In terms of personnel, the OIC 
allows for a collaborative work area and communications capabilities 
for all components of CBP, USCG, other DHS organizations, Federal law 
enforcement agencies, State and local law enforcement, the RCMP, and 
CBSA.
    The OIC brings together information feeds, including radar and 
camera feeds, blue force tracking, database query from databases not 
previously available to CBP, remote sensor inputs, RVSS and MSS feeds, 
and video from various POEs and tunnels. Additional information feeds 
such as local traffic cameras will be added in the near future. This 
level of personnel and technology integration serves as a model for 
collaboration and technology deployments in other areas of the Northern 
Border.
    In 2005, CBP created a robust information sharing environment known 
as ``BigPipe,'' which links equipped CBP aviation assets and 
information-sharing protocols to Federal, State, local, and Tribal law 
enforcement and public safety agencies to provide near-real time video 
and sensor data--enhancing situational awareness for officers and 
rescue personnel across the public safety community. BigPipe is also 
used by numerous Federal, State, local, and Tribal agencies during 
warrant presentations, controlled deliveries, search-and-rescue, and 
surveillance operations. Earlier this year, live video information 
streamed via Big Pipe was used to enable FEMA Rapid Needs Analysis 
(RNA) teams to quickly determine the condition of levees during the 
flooding that occurred in the Mississippi River Valley.
    Additionally, Processing, Exploitation, and Dissemination cells 
have been established at the Air and Marine facilities in Riverside, 
California, and Grand Forks, North Dakota, to provide essential 
information to law enforcement across the Nation--increasing our 
understanding of evolving threats and providing the foundation for law 
enforcement entities to exercise targeted enforcement in the areas of 
greatest risk. This intelligence-driven approach prioritizes emerging 
threats, vulnerabilities, and risks, greatly enhancing our border 
security efforts.
    Chairman Bilirakis, Representative Clarke, and distinguished 
Members of the committee, thank you for this opportunity to testify 
about the work of U.S. Customs and Border Protection and our efforts in 
securing our borders. I look forward to answering your questions at 
this time.

    Mr. Bilirakis. Thank you, Mr. Beutlich. Appreciate it very 
much. Thank you.
    I now recognize myself for approximately 5 minutes. My 
first question will go to Administrator Velasquez.
    I am pleased you discussed cross-border mutual aid in your 
statement, and the meeting you hosted earlier this week to 
further negotiate--the negotiations of these mutual aid 
agreements in the CREMAC region, I feel they are very, very 
important. Could you tell us a little more about when you think 
the agreements will be ratified and what feedback you received 
from State participants?
    Mr. Velasquez. Well, I will have to tell you, Mr. Chairman, 
that the meeting was incredibly productive. The National 
Emergency Management Association and the Canadian Council of 
Emergency Management Organizations were just incredibly happy 
with the great, great discussions that occurred, although there 
was some spirited debate. But they were very pleased with the 
discussions that had occurred.
    We are now at the stage where we have reached consensus on 
language for the agreement, and the next step at this time is 
for the respective organizations to take this agreement back to 
their leadership for concurrence. Then, in the days to come 
and, hopefully, in the weeks to come, we will move that 
agreement through the acceptance phase and then onward to the 
ratification phase.
    But there are still some issues with language that they are 
tweaking, but we have made some significant and tremendous 
progress toward cross-border mutual aid among our partners in 
Canada. So, we are really excited about this opportunity.
    Mr. Bilirakis. Do you think within the end of the year--by 
the end of the year you might have ratification?
    Mr. Velasquez. That is our hope.
    Mr. Bilirakis. That is your----
    Mr. Velasquez. That is certainly our hope, and we are 
working to ensure that we can get the agreement expedited 
through the acceptance phase as quickly as possible. I can 
assure you that we will stay on top of this to ensure that if 
there are any other issues, we will work to address those 
quickly and as expeditiously as possible.
    Mr. Bilirakis. Very good. Thank you.
    Question for Admiral Parks. My colleagues along the 
Northern Border have extolled the benefits of the Shiprider 
program and the way our Coast Guardsmen are able to join with 
their Canadian counterparts--and you talked about this--in the 
Royal Canadian Mounted Police. What is your opinion of the 
Shiprider program, and do you think the American Government 
should continue to pursue this program?
    What is the current status, of course, of the program? I 
know you talked about it. Maybe you can elaborate a little bit? 
What is needed to make this cooperation operational on a daily 
basis?
    Admiral Parks. Thank you, Mr. Chairman.
    You will find few larger fans of the Shiprider program than 
myself.
    Mr. Bilirakis. I kind of figured so.
    Admiral Parks. It is an incredible opportunity that, 
basically, in summary, erases the border as an impediment to 
border enforcement issues for our two countries. By that cross-
designation, it is just an incredible force multiplier.
    The other thing is not just the ability to be more 
effective from an operational sense, it is also a fiscally 
smart way to go because it allows us to gain benefit from 
sharing resources with our Canadian partners.
    Currently, that is awaiting ratification in Canada. We 
have--while we are awaiting that, we have continued to train. 
We currently have 112 people trained, both 56 Canadians and 56 
U.S. folks that went through training in 2010 at our law 
enforcement academy in Charleston, South Carolina, so that we 
can continue to be prepared as soon as we get approval from the 
Canadian government, that we can operationalize that.
    We are preparing to use it. We just used it in G-20 in 
Toronto. It obviously was a huge success in the Vancouver 
Olympics and the Paralympics in 2010. So we are working very 
hard to be ready to operationalize that and have been meeting 
with our U.S. partners as well as our Canadian partners to be 
ready for that, sir.
    Mr. Bilirakis. Very good. Director Beutlich, are any of 
your personnel participating in the program?
    Mr. Beutlich. At this point in time, I don't believe we 
have any participation actively. However, we are standing by, 
once this first class goes through, to go ahead and participate 
in support. Like the admiral said, it is going to be a 
tremendous force multiplier.
    When you consider the amount of waterways that exist in the 
Great Lakes and in the connecting rivers, no one force has 
sufficient personnel or assets to be able to accurately patrol 
that area. So having what Shiprider brings to the table is 
going to be a tremendous force multiplier for all enforcement 
efforts, both Canadian and U.S., along the Great Lakes and the 
connecting rivers.
    Mr. Bilirakis. Thank you, sir.
    Okay, Director, you mentioned in a statement that CBP 
recently opened the Operational Integration Center, which is 
important to help coordinate operations between DHS components 
and their State and local law enforcement partners.
    Mr. Beutlich. Yes, sir.
    Mr. Bilirakis. Is the OIC fully operational? Are all parts 
of CBP engaged in the center, and are the key local, State, and 
Federal agencies participating in this center?
    Then, does the OIC have operational control of any 
resources or assets, or is it simply an information-sharing 
arena that depends on collaborative planning?
    Mr. Beutlich. Sir, if I can try and touch each one of the 
questions?
    Mr. Bilirakis. Yes, I can repeat the questions if you like. 
No problem.
    Mr. Beutlich. The OIC is fully operational.
    Mr. Bilirakis. Okay.
    Mr. Beutlich. One of the keys of the OIC is it is 
tailorable and scalable. The component members that are there 
don't necessarily have to be there 24/7. If a mission need 
arises, the door is open in the OIC to be able to support 
anything at the local, State, or Federal level.
    We do have--the four main Federal partners are maintaining 
a presence there: Customs and Border Protection, specifically, 
with field operations, Office of Air and Marine, Office of 
Border Patrol, and the United States Coast Guard. The OIC has 
brought in some recent initiatives, which are aiding with the 
maritime aspect.
    Recently, listening to some of the concerns raised by local 
boaters within the Great Lakes area about multiple boardings, 
we have leveraged some technology which ties in both the OIC 
and the Coast Guard Command Center to try and reduce some of 
those.
    It is not under operational control of any of the assets. 
It is, as you had mentioned, sir, a more of an information-
sharing capability, more of an ability to move that information 
quickly between the component agencies on the water both at the 
Federal level, as well as at the State and local level.
    I think I got all of them answered.
    Mr. Bilirakis. Very good. One more question, and then I am 
going to yield to Representative Clarke.
    What about Watchkeeper? Describe that. Maybe, Admiral, you 
want to as well. Then, is it being utilized in the OIC?
    Mr. Beutlich. I will turn that over to the admiral on 
Watchkeeper.
    Admiral Parks. Yes, sir. It is, in fact, being used there, 
and I think that if I could kind of foot-stomp what the 
director has just said, I think the Operation Integration 
Center is really--we are just scratching the surface on the 
potential that it demonstrates.
    Our ability to use that facility and its ability to 
leverage the technology, it has kind of a short--a small scope 
right now. But its potential is much, much larger to be able to 
integrate that information and some day might even be able to 
actually, if resourced appropriately with the right kind of 
people there all the time, on a 24/7 basis, I think we could 
almost operationalize it. So it could have operational control.
    I think that this demonstration project is certainly worthy 
of continued support. We feel completely welcome at the table, 
and this is, I think, a DHS success story for cross-border 
operational information and integration.
    Mr. Bilirakis. Very good.
    Okay, at this time, I would like to yield to Representative 
Clarke for as much time as he would like, but within reason.
    [Laughter.]
    Mr. Clarke. Yes. Absolutely.
    Again, thank you, Mr. Chairman, for giving us this 
opportunity.
    Administrator Velasquez, appreciate your leadership with 
FEMA. A couple questions, just about the unique challenges 
facing the city of Detroit, given its position on the Northern 
Border. If you could describe to me what you see as the unique 
security challenges facing Detroit and how those challenges 
affect FEMA's ability to respond to an emergency and to better 
coordinate an effective response?
    Mr. Velasquez. Well, having had the responsibility, 
Congressman, of actually overseeing a large and complex urban 
area emergency management operation myself, having been the 
former director of the Chicago Office of Emergency Management, 
I am very keenly aware of the threats that large cities face in 
this country.
    I think it is important that we take the steps necessary, 
working in partnership with all of the members that make up the 
emergency management and homeland security enterprise, that we 
work together to better understand those threats that we face 
and that we develop plans in accordance with those threats that 
we face.
    I think the biggest issue here is that sometimes we can 
find ourselves becoming a little complacent in terms of 
planning for those threats that we are most familiar with. But 
I think sometimes we have to focus our attention now on the 
threats that can truly stress the emergency management system 
of this country.
    So, having a composite picture of those threats that you 
face is important, and the only way that you can do that is 
through true interoperability. What I mean by that is not 
interoperability, per se, from a radial perspective, but 
interoperability from an agency perspective, interoperability 
from the perspective of public safety agencies working together 
to develop innovative and creative ways to respond to these 
threats.
    The threat of terrorism exists in any big city, and these 
are the types of threats that we have to make sure that we are 
focusing our attention on, in addition to those natural threats 
that we face. So, focusing on the natural and focusing on the 
man-made are critical at this juncture in our history.
    Mr. Clarke. Thank you.
    Just a follow-up, it goes to the role of the Urban Areas 
Security Initiative funding and, as I stated in my opening 
remarks, that funding eligibility was threatened to be wiped 
out for this city and this region, which would have been 
totally unacceptable. It was because of the leadership of our 
Chairman we have garnered the supports on the Republican side 
that allowed my amendment to prevail in the House to at least 
restore that eligibility.
    Could you explain to us how that funding initiative and 
other first responder grants can be used to help better develop 
the disaster response capabilities of our local police, fire, 
and emergency medical providers?
    Mr. Velasquez. Congressman Clarke, excellent question. 
Planning, training, and exercising is what really forms the 
core of our emergency preparedness efforts. I think these grant 
funds have and continue to be used to enhance capability, to 
bolster our plans, and to make sure that we are making a 
concerted effort to better understand the types of threats that 
we face and the resources that are necessary to confront those 
threats.
    So, we can utilize these grants for a variety of reasons. 
We utilize them for, as I said, planning--planning for the 
catastrophic-type events, planning for acts of terrorism. We 
use them to build capacity, developing specialized teams, 
developing mutual aid teams, in-State mutual aid teams.
    Because I think sometimes, as you mentioned earlier, we 
recognize the challenges associated with struggling 
communities' diminished and diminishing resources. So, as we 
receive funding, we need to come up with creative and 
innovative ways to utilize that funding to create mutual aid 
teams, to create specialized teams, so that way we can have 
these readily available.
    So, enhancing our readiness posture by the development of 
mutual aid teams and specialized teams is critical in this 
effort to confront the threats that we face in urban areas, and 
so we can use them to build capacity. Then, of course, 
equipment. Equipment is key.
    So, looking at new and innovative solutions for 
interoperability from a radio perspective, or from a satellite 
perspective, or even from a GIS perspective, to help us 
identify threats, to help us with our planning efforts, and 
even, in some instances, predictive analysis. So, all of these 
areas--planning, training, and exercising--can be funded 
through grant monies.
    Mr. Clarke. Thank you, Administrator.
    For all of the first responders who are here, I mean, we 
are acutely aware of the risk of an attack or an emergency that 
we are facing every day. A few years ago, the Christmas day 
bomber attempted to blow up a plane that was destined for our 
Detroit Metropolitan Airport.
    You know, we were all concerned that our Ambassador Bridge, 
one of the busiest international border crossings in all of 
North America, could be the target of an attack. Our tunnels 
could be blown up. But this morning's simulated exercise of a 
biological attack here on Wayne State University underscores 
the new and evolving threat that faces us here, and that is of 
bioterrorism.
    Now, you know, at risk of putting an idea in a terrorist's 
mind, which, unfortunately, they have already been thinking 
about this. You know, our drinking water system, it is open. It 
is vulnerable. Some terrorist could poison that system and kill 
or harm, you know, millions of us here in this region.
    So we are particularly at risk here in metropolitan Detroit 
because of all of these assets. So, Administrator Velasquez, to 
whatever degree you can, I would ask you to urge the Department 
of Homeland Security to reconsider this sector's designation 
under the Urban Areas Security Initiative. We definitely 
warrant a Tier 1 status.
    You know, just our history here. You know, it was our 
folks' parents and grandparents that helped this country win 
World War II when we built the arsenal of democracy. Over the 
last five decades, you know, the innovation that we have had 
here in this city, in this region to create the auto industry, 
to sell cars. It created millions of jobs all around this 
country. That originated right here. This is a vital region for 
this country's economic renewal.
    So, you know, in my other role outside of this committee, I 
am asking Congress, let us help rebuild this city because we 
can renew America's economy. But in the same sense, though, we 
need to be protected as well in order to secure this country's 
economy.
    So thank you for considering that. As a native east sider, 
I would also like to say that we have got a great facility, 
Samaritan Center--Father Francis was here--that I believe if it 
were upgraded could be designated as a Federal emergency 
center. I will be talking to you and other Federal officials 
about that.
    We have a lot of resources here. One great thing--and Mr. 
Chairman, if you would allow me?
    Mr. Bilirakis. No, go ahead.
    Mr. Clarke. He knows what my job is in Congress. I am not 
necessarily being the representative of the 13th District, I am 
the salesman for metro Detroit.
    You know, we have been through some tough times in this 
region, but because of that, we are tough folks. So we are 
precisely the people you would want to invest in here. We can 
help make this region safe. We can help make this country safe. 
So thank you again.
    To Admiral Parks, you know, your response about the value 
of the Shiprider program really underscores the new way of 
looking at the international border with Canada. It is no 
longer a division between the United States and Canada, but it 
is essentially a shared border.
    How does the Coast Guard's relationship with Canadian law 
enforcement agencies further efforts to pursue in a sense this 
joint perimeter approach to security? So, essentially, maybe 
outside of the Shiprider concept, how does the Coast Guard's 
relationship with Canadian law enforcement really foster this 
shared border approach to security?
    Admiral Parks. Well, Congressman, the Coast Guard has got a 
very active role. We are, as mentioned previously, one of the 
charter members of the IBET, the Integrated Border Enforcement 
Team. We work very closely with our partner Federal and 
Canadian agencies to try to work on that information sharing.
    We work very closely, obviously, across the border and not 
just in law enforcement, but the Coast Guard has a rather 
unique position in that we work with a number of agencies in 
Canada. We don't just work with our Canadian Coast Guard. That, 
obviously, is a very strong relationship, but we also work very 
closely with the Royal Canadian Mounted Police, the Canadian 
Border Security Agency.
    We work with Transport Canada Safety and Security. We work 
with Environment Canada. We work with Canada's Ministry of 
Public Safety. We work with their defense, you know, ministry. 
So we have relationships with all those entities because of our 
Coast Guard's 11 statutory missions.
    In our country, we have a lot of cross-border activity, and 
I think the relationship that the Coast Guard brings with our 
Canadian partners is really one based on trust. There is a lot 
of truth and a lot of transparency, and we have worked very, 
very closely together with them.
    So, I think that that is one of the reasons we have got 
this relationship that is allowing Shiprider to be so 
successful. As we continue to leverage our relationship, we 
will be able to use that for other agencies inside our 
department and our country.
    So we do that on a daily basis with our Canadian 
counterparts as we operate in this region. One of the things to 
keep in mind is this is a 1,500-mile maritime border. That is 
the same distance as the distance from San Diego to 
Brownsville.
    Mr. Bilirakis. Amazing.
    Mr. Clarke. Thank you, Admiral Parks.
    Yes. It really is. Also I just want to tell you, you have 
got a real tough guy here in Commander Ogden, who is our 
captain here. So I really appreciate the work that you are 
doing here in this sector.
    That is a great segue to Director Beutlich. You outlined--
you had actually described the over 5,000-mile Northern Border. 
The reason why that is so important here, that is one of the 
bases for having this hearing.
    Because in the Department of Homeland Security, the 
committee oversight, our focus has been primarily on the 
Southern Border, you know, between Mexico and the United 
States, which is pretty much flat. I mean, it is a lot easier 
to monitor than the Northern Border, which, as you outlined, 
crosses mountainous terrain or it is in the middle of heavily 
forested area. Or right here in Detroit, it is right in the 
middle of a body of water. That makes it very difficult to 
monitor the Northern Border, compared to the Southern Border.
    To what extent do you see the increased use of unmanned 
aircraft systems and video surveillance as a way to effectively 
monitor the Northern Border, such as the area right here 
separating Detroit from Windsor?
    Mr. Beutlich. Well, sir, the unmanned aerial systems that 
we have within Customs and Border Protection, just we now have 
the ability to operate them on the Northern Border between 
Spokane, Washington, and Minnesota. That, right now, is the 
certificate of authorization granted by the FAA.
    We have a small area that we can operate currently in the 
Syracuse, New York, area. We are actively working with the FAA 
to bridge that gap, if you might say, that is between the 
eastern edge of the current certificate of authorization in 
Minnesota down to that area in New York.
    This is a very heavily air-trafficked area when you 
consider the amount of commercial aviation. So we are working 
with the FAA because of the safety concerns that we have to 
have for the general aviation airspace to make that happen. FAA 
has been fantastic with working with us over the years and 
going ahead and getting that.
    Also coming into the mix is a manned aircraft we have at 
the MEA, which will be the newest aircraft to our fleet. Right 
now, we have five in production. They are scheduled to be 
delivered. As a matter of fact, the first one has been 
delivered to San Diego to go through operational tests and 
evaluation.
    We are scheduled to receive one of those aircraft 
specifically to address the maritime issues within the Great 
Lakes area sometime next year. We don't have a firm date on it 
as yet.
    But it, like the UAS, has the capability of maritime radar, 
as well as what is most important is the data link capability 
that they possess, which gives the information to the OIC as 
capable of giving the information to--through BigPipe to just 
about anybody who wishes to receive it, whether that be FEMA, 
whether that be the RCMP, whether that be the Ontario 
Provincial Police.
    Mr. Clarke. Thank you, Director Beutlich.
    Just for all of you that are not involved with 
Congressional affairs, when we talk about yielding back time, 
that means we are giving up our time back to the other Member. 
So, with that, I yield my time back to the Chairman.
    Mr. Bilirakis. Thank you. Thank you.
    All right. I want to thank the witnesses for their 
testimony, and of course, the Members--only two of us here--for 
the questions. With that, I dismiss the panel, and we will now 
move to the second panel.
    Thank you very much, gentlemen. Thank you. Very 
informative. Appreciate it.
    [Pause.]
    Mr. Bilirakis. Let us get started with the second panel. I 
would like to introduce the witnesses.
    Our first witness is Captain Thomas Sands. Captain Sands is 
commander of the Michigan State Police, Emergency Management 
and Homeland Security Division. As commander, he served as the 
Deputy State Director of Emergency Management and Homeland 
Security.
    Captain Sands chairs the Michigan Homeland Security 
Advisory Council, the Homeland Security Preparedness Committee, 
and the Michigan Citizen Community Emergency Response 
Coordinating Council. He received a bachelor's degree in public 
administration from Central Michigan University and is a 
graduate of the 211th session of the FBI National Academy in 
Quantico--I may have mispronounced that, and I apologize--
Virginia.
    Our next witness is Mr. Donald Austin. Mr. Austin is the 
commissioner of the Detroit Fire Department. Prior to coming to 
Detroit, Commissioner Austin served nearly 30 years in the Los 
Angeles Fire Department. During his tenure in the LAFD, he rose 
from training academy peer instructor to assistant chief.
    During this time, he worked as the homeland security 
assistant chief for Los Angeles International Airport and 
enhanced the maritime domain awareness in the Port of Los 
Angeles as the harbor homeland security assistant chief. He 
retired in February 2011 and moved to Detroit to serve here as 
the fire commissioner.
    Commissioner Austin earned his bachelor's degree in 
business administration from California State University, 
Dominguez Hills and during this time served as a member of the 
California National Guard.
    After Commissioner Austin, we will hear from Mr. Daryl 
Lundy. But I want to say, and I know that Hansen is going to 
say this, too. The commissioner is from Detroit.
    Mr. Clarke. That is right.
    Mr. Bilirakis. He is from Detroit. He is a native. East 
Detroit?
    Mr. Clarke. East side.
    Mr. Bilirakis. East side. East side. Okay. All right. That 
is important.
    Mr. Lundy, we will hear from him next. He is the director 
for homeland security and emergency management for the city of 
Detroit, Michigan. Prior to his appointment as director, Mr. 
Lundy was a colonel in the United States Army Military Police, 
where he served as director of military support to civil 
authorities, Department of Military and Veterans Affairs for 
the State of Michigan--something close to my heart.
    In his position, he was responsible for State security 
plans concerning natural disasters, weapons of mass 
destruction, National security special events, and military 
support for civil disturbance. Prior to his last assignment, he 
served as an inspector general for Army and Air Force personnel 
for the State of Michigan.
    Director Lundy received his bachelor's of science in 
sociology and criminal justice from Western Michigan University 
and is a graduate of the U.S. Army Command and General Staff 
College. Welcome, sir.
    Finally, we will receive testimony from Mr. James Buford. 
Mr. Buford is director of Wayne County Homeland Security. 
Previously, Director Buford was a member of the Wayne County 
Sheriff's Department for 21 years, where he was assigned to the 
Sheriff's Road Patrol.
    He was promoted through the ranks from certified police 
officer to commander. Mr. Buford has received two departmental 
citations, three unit citations, and the community service 
citation for his service.
    Director Buford retired from the United States Army 
Reserves in 1989. He received his bachelor's degree from Wayne 
State University, and his master's degree from Eastern Michigan 
University.
    Welcome all, and we look forward to your testimony.
    Captain Sands, you are recognized for approximately 5 
minutes. We are going to have to try to stick to the 5-minute 
rule here. But you are recognized, sir, to testify. Thank you 
for being here.

 STATEMENT OF CAPTAIN W. THOMAS SANDS, DEPUTY STATE DIRECTOR, 
     DIVISION OF EMERGENCY MANAGEMENT AND HOMELAND SECURITY

    Captain Sands. Thank you.
    Good morning, Chairman Bilirakis and Representative Clarke. 
Thank you for the opportunity to appear before you today on 
behalf of the State of Michigan and the Michigan State Police 
Emergency Management and Homeland Security Division.
    It is a privilege to be here to discuss the State of 
Michigan's efforts to secure our Northern Border and 
international waterways in coordination with our partners from 
local units of government and Federal agencies. I would like to 
begin by providing an overview of Michigan's homeland security 
framework and the role of Michigan State Police in protecting 
our citizens from all hazards, both natural and man-made.
    Michigan's unique geography, resources, and critical 
infrastructure are vital to the Great Lakes region and the 
country. With 721 miles of shared international border with 
Canada, Michigan serves as our Nation's principal gateway for 
international commerce and trade.
    The State of Michigan has built an extensive homeland 
security structure to safeguard Michigan's residents and 
resources by ensuring the necessary plans, procedures, systems, 
and protocols are established before an emergency occurs.
    I would ask that my written testimony be entered into the 
record so I may provide just a brief overview of that 
testimony.
    Mr. Bilirakis. So ordered. Thank you, sir.
    Captain Sands. In Michigan, I am quite proud we have a very 
inclusive and transparent system for organizing and structuring 
our homeland security efforts. It starts with the input and 
participation from the local level up. It starts with local 
planning teams, which is built primarily by first responders, 
moves up to the regional board, which they report to--those 
regional boards coordinate many efforts across the State and 
provide input up to us at the State through the Homeland 
Security Advisory Committee and other committees, ultimately to 
the Homeland Protection Board in an advisory nature to the 
Governor.
    We have what I believe is a National best practice on our 
homeland security strategies. It is built on the age-old 
premise that all disasters happen locally.
    We assisted the regions in building their regional 
strategies. Went out, they did a self-assessment on 37 target 
capabilities, their ability to respond to different incidents, 
put that up against their ability to respond in other--or many 
areas, and ultimately built goals with objectives to fill those 
critical gaps that they personally identified. We tie all the 
homeland security funding to those.
    We then took the regional strategies and built our State 
strategy. So our role at the State is to help coordinate the 
resources and response, provide whatever assistance that the 
locals need. We, again, at the State level tie all our funding 
to fulfilling those goals and objectives.
    We have made tremendous progress over the last several 
years, and I would just like to talk to you about a couple of 
current initiatives that we have on-going right now. A primary 
one is in the area of information-sharing environment.
    We have the Michigan Intelligence Operations Center, which 
is the State's primary fusion center, as well as we have helped 
support the UASI region here with standing up the Detroit and 
Southeast Michigan Intelligence Information Center. These two 
centers help gather and share information locally, across the 
State, and nationally through the National Operations Center.
    We have a very close working relationship with our Federal 
partners in the fusion center as the State Department of 
Homeland Security, State intelligence officer. We have the FBI. 
We have a number of other Federal agencies, as well as State 
departments and local agencies as part of those centers.
    A big part of those fusion centers is communicating with 
the private sector. With 80 percent of the critical 
infrastructure owned by the private sector, it is imperative 
that we are communicating to them on threats and also gathering 
information from them to share with their counterparts. We have 
a 24/7 operation there. It has been very successful in 
coordinating these initiatives.
    In the area of collaboration, we do a tremendous amount of 
collaboration. You heard earlier this morning from the Customs 
and Border Patrol on their Operation Integration Center. That 
is a tremendous asset to the State of Michigan. I believe it is 
going to pay significant dividends.
    We have been working closely with them and coordinating 
resources. I have a staff working on a camera project, which 
will allow us in the State emergency operations center, in the 
MIOC, and in the DSEMIIC to view some of the camera feeds they 
have. In return, we have a number of cameras throughout the 
UASI area here, as well as across the State, that we are tying 
the technology in so that they will be able to view those 
cameras as well.
    You heard from the Coast Guard about Operation Channel 
Watch, a tremendous initiative there. We participate with our 
aviation section, dive teams, and other specialty teams to help 
secure that border. A big part of that is the information 
sharing as well, passing out information to boaters, help get 
information from the public on things that they may deem 
suspicious that is coming across the waterways.
    We have a very close working relationship with FEMA, a 
number of initiatives underway. They have been tremendous 
supporters in improving emergency management here in Michigan.
    You also heard about the project going on with Canada. For 
several years, I have participated in the North American Mutual 
Aid Working Group to help establish not only a mutual aid 
agreement with Ontario, but hoping to carry that across the 
entire Northern Border.
    I share the comments from Mr. Velasquez here this morning. 
It was a very productive meeting, and I am very optimistic that 
we are going to see success on that.
    In the area of communications, interoperability with our 
radio systems always has been a challenge, and anything that 
goes wrong in a disaster oftentimes comes back to those 
communication issues. I have on my staff a full-time State-wide 
interoperability coordinator to work with the locals, working 
to help support and improve operability across the State.
    There has been some grant funding that has come into the 
State through Wayne Country through DHS Border Interoperability 
Demonstration Project to help some of the issues there. We do, 
at the State level, have several radio caches. So if we do have 
a significant incident, we can help with those.
    In closing, I would just like to again thank you for having 
me here today.
    [The statement of Captain Sands follows:]

                 Prepared Statement of W. Thomas Sands
                            October 28, 2011

    Good morning Chairman Bilirakis, Ranking Member Richardson, and 
distinguished Members of the House Subcommittee on Emergency 
Preparedness, Response, and Communications. Thank you for the 
opportunity to appear before you today on behalf of the State of 
Michigan and the Michigan State Police, Emergency Management and 
Homeland Security Division (MSP/EMHSD). It is a privilege to be here 
today to discuss the State of Michigan's efforts to secure our Northern 
Border and international waterways in coordination with our partners 
from local units of government and Federal agencies.
    I would like to begin by providing an overview of Michigan's 
homeland security framework and the role of the Michigan State Police 
in protecting our citizens from all hazards, both natural and man-made. 
Michigan's unique geography, resources, and critical infrastructure are 
vital to the Great Lakes Region and the country. With 721 miles of 
shared international border with Canada, Michigan serves as our 
Nation's principal gateway for international commerce and trade.

                 MICHIGAN'S HOMELAND SECURITY FRAMEWORK

    The State of Michigan has built an extensive homeland security 
structure to safeguard Michigan's residents and resources by ensuring 
the necessary plans, procedures, systems, and protocols are established 
before an emergency occurs. The responsibility of Michigan's homeland 
security response activities and initiatives rests with the director of 
the Michigan State Police (MSP), who serves as the State Director of 
Emergency Management and Homeland Security.
    As the commander of the MSP Emergency Management and Homeland 
Security Division, I hold the position of Deputy State Director of 
Emergency Management and Homeland Security with the responsibility of 
coordinating the State's day-to-day activities for all emergencies and 
disasters. The MSP/EMHSD focuses on a number of areas including 
strategic planning, intelligence gathering, information sharing, 
critical infrastructure protection, citizen preparedness, and Federal 
homeland security grant programs.
    Michigan's homeland security framework is based on a collaborative 
effort among all local, State, and Federal agencies working together to 
protect Michigan's residents, resources, and Northern Border. To ensure 
a coordinated homeland security approach, the State of Michigan 
implemented an enhanced 5-year State-wide Homeland Security Strategy in 
2009 integrating the State's collective efforts in accordance with a 
strategic vision to complement and unite the capabilities of all 
partners. With the understanding that all disasters begin as local 
events, the State-wide homeland security strategy focuses on local 
priorities developed by the State's seven regions.
    Michigan's border crossings, manufacturing centers, corporate and 
government buildings, waterways, and technology networks all present 
attractive targets for terrorists and criminals. To secure the safety 
of Michigan's assets, the State-wide Homeland Security Strategy focuses 
on eight strategic goals, including improving operational readiness, 
enhancing intelligence and information sharing, reducing the risk to 
critical infrastructure and key resources including international 
interdependencies, and strengthening communications capabilities.
    Today, I will discuss several initiatives underway in the State of 
Michigan to bolster the security of our Northern Border in partnership 
with local, State, and Federal agencies.

                          INFORMATION SHARING

    The State of Michigan has worked extensively to develop a 
collaborative environment and culture of sharing information among all 
Government agencies, law enforcement, private sector members, and the 
public.
    One of our key means of sharing information is through Michigan's 
primary fusion center, called the Michigan Intelligence Operations 
Center for Homeland Security, known as the MIOC. Operational since 
2007, the MIOC was established to build upon existing information-
sharing practices and to enhance relationships between law enforcement 
agencies. Housed within the MSP, the MIOC operates 
24/7 providing a critical link to all Government and law enforcement 
agencies, as well as the private sector in sharing critical information 
as it pertains to all crimes, all threats, and all hazards. The MIOC is 
one of 72 Federally-recognized fusion centers Nation-wide to 
effectively exchange information and intelligence, and improve the 
ability to fight crime and terrorism by maximizing resources and 
streamlining operations.
    The MIOC is a cooperative effort among all levels of government and 
the private sector, including the following agencies working within the 
facility: Michigan Departments of State Police (MSP), Corrections 
(MDOC), Military and Veteran Affairs (DMVA), Technology, Management & 
Budget (DTMB), and Transportation (MDOT), as well as the Michigan 
National Guard, Federal Bureau of Investigation (FBI), U.S. Coast 
Guard, U.S. Customs & Border Protection (CBP), U.S. Department of 
Homeland Security (DHS), Transportation Security Administration (TSA), 
and Michigan State University Police Department.
    The MIOC works extensively with public and private sector partners 
in Michigan, the United States, and Canada to gather and share 
intelligence to help prevent acts of terrorism or crime from occurring 
in our country and across the Northern Border. Through sharing 
information, the MIOC is able to help identify trends occurring across 
the Northern Border, such as organized crime, narcotics smuggling, or 
human trafficking, which can then be shared with law enforcement 
agencies in the United States and Canada.
    A key nexus of information sharing takes place among the many 
jurisdictions and agencies located in Southeast Michigan, which is 
designated as a Tier II Urban Areas Security Initiative (UASI) by DHS. 
Over the past several months, the State of Michigan has worked in 
partnership with members of the UASI Board to begin standing up a 
fusion center, called the Detroit Southeast Michigan Information and 
Intelligence Center (DSEMIIC). The DSEMIIC serves as a node of the MIOC 
to help streamline the flow of information sharing in Southeast 
Michigan and State-wide.

                        COLLABORATING RESOURCES

    In March 2011, Michigan's capabilities to secure the Northern 
Border were significantly enhanced by the opening of the CBP 
Operational Integration Center (OIC) located at the Selfridge Air 
National Guard Base in Michigan. The MSP and MIOC are building a strong 
partnership with the OIC to protect Michigan's Northern Border.
    We are currently in the process of developing infrastructure to 
provide the OIC, MIOC, DSEMIIC, and State Emergency Operations Center 
(SEOC) with the capability to share data, videos, and maps among all 
facilities. This capability will better enable Michigan to provide 
timely and actionable intelligence to enhance our border integrity and 
to direct operations in an efficient and effective manner. Through our 
partnership with the OIC, Michigan is able to further protect our 
Northern Border by integrating law enforcement and intelligence 
resources into one common operating picture, thus maximizing the 
effectiveness of our combined efforts.
    Our department strives to work in partnership with our fellow 
public safety agencies to join resources and intelligence assets 
through collaboration and interagency consortiums. For example, since 
2010 the MSP Aviation Unit has supported the CBP with patrolling the 
international border in Southeast Michigan. The primary mission for MSP 
aviation is observing and tracking activities along the border that may 
be a violation at international crossings, waterways, or critical 
infrastructure sites. This partnership strengthens the security of 
Michigan's Northern Border and enhances the response capabilities of 
local, State, and Federal resources along the border.
    Recognizing the importance of patrolling and securing our shared 
international waterways, the MSP and additional State agencies actively 
participate in Operation Channel Watch led by the U.S. Coast Guard 
(USCG), which is designed to gather intelligence and intercept illegal 
activity associated with the international border. Operation Channel 
Watch brings together law enforcement officers from local, State, and 
Federal agencies to carry out joint patrols along shared waterways 
between Michigan and Canada to improve interoperability, maximize 
public service, and promote sharing of resources and collaborative 
intelligence gathering. The MSP also serves as a member of the Area 
Maritime Security Committee (AMSC) to help identify and mitigate any 
threats against Michigan's ports.
    The MSP maintains a continuing presence in several other 
interagency consortiums, including the Integrated Border Enforcement 
Team (IBET) formed in 2002, which is a joint bi-national law 
enforcement team involving agencies from both the United States and 
Canada. The team analyzes and responds to information gathered from a 
collection of border agencies pertaining to illegal cross-border 
activity.

                     ENHANCING BORDER CAPABILITIES

    Since the attacks against our Nation on Sept. 11, 2001, Michigan 
has enhanced its capabilities and resources to protect citizens against 
threats along and across the Northern Border in large part through 
Federal grant funding.
    Since fiscal year 2008, Michigan's law enforcement capabilities 
have been significantly bolstered along the Northern Border with the 
award of nearly $10.5 million under the DHS Operation Stonegarden Grant 
Program (OPSG). Michigan and other Northern Border States were 
incorporated into the OPSG program for the first time in 2008, which 
enabled the Michigan counties of Chippewa, St. Clair, and Wayne to 
purchase equipment and increase law enforcement patrols along their 
shared land border with Canada. Since the OPSG program was expanded in 
2009 to include international water and shared land borders of the 
United States, 24 counties in Michigan are now eligible to receive OPSG 
funding.
    With the availability of OPSG funding, Michigan's Northern Border 
is better secured by providing law enforcement agencies with the means 
to put more boots on the ground by covering overtime costs and to 
purchase essential equipment needed to patrol the border. For example, 
OPSG funding was used to purchase a communications tower in Chippewa 
County located in Michigan's Upper Peninsula, which greatly enhanced 
the ability of law enforcement to secure the border as they encountered 
illegal border crossings and previously had limited capabilities to 
communicate in the area.
    As evident during the September 11 attacks, one of the biggest 
challenges first responders often face is difficulty communicating with 
one another due to different communication systems or a lack of 
infrastructure. Over the past decade, Michigan has greatly expanded the 
ability for public safety personnel to communicate during an incident, 
share critical information in a timely manner, and leverage all 
available resources in an efficient and effective manner. While it is 
critical for Michigan first responders to have the ability to 
communicate with one another, we also recognize the importance of 
facilitating communications between Michigan, neighboring States, and 
Canada. Because when a disaster strikes, it ignores geographical 
boundaries affecting communities from different jurisdictions, States, 
and countries.
    A project is currently underway enhancing interoperable 
communications among local, State, Federal, Tribal, and international 
partners through the award of $4 million to Wayne County as a part of 
the DHS Border Interoperability Demonstration Project (BIDP). With the 
use of BIDP funding, the necessary infrastructure and equipment is 
being purchased creating a gateway connecting the Michigan and Canadian 
public safety communications systems. This project will improve 
communications for emergency personnel responding to incidents along 
the international border and ports of entry between Canada, Southeast 
Michigan, and Sault Ste. Marie. Michigan serves as a key hub for 
international trade along the Northern Border with transportation 
infrastructure including three international bridges, three tunnels, 
and multiple vehicle ferries.
    The MSP Commercial Vehicle Enforcement Division (CVED) has worked 
extensively to secure Michigan's Northern Border by promoting 
commercial vehicle safety enforcement measures, including conducting 
security visits on bulk hazardous materials carriers in Michigan. Since 
2004, the CVED has received nearly $7.6 million in funding from the 
U.S. Department of Transportation to enhance commercial motor vehicle 
security at Michigan's international border crossings. Using Federal 
funding, our department has expanded commercial vehicle enforcement 
efforts at the Ambassador Bridge in Detroit, the Blue Water Bridge in 
Port Huron, the Detroit-Windsor Truck Ferry, the International Bridge 
in Sault Ste. Marie, and the tunnel connecting Detroit and Windsor.

                           PROACTIVE MEASURES

    Events like the 2009 Christmas day airplane bombing in Detroit are 
a reminder that a terrorist attack in Michigan and across our Northern 
Border is a realistic threat we must be prepared for. I am pleased to 
share with you today that Michigan has taken several proactive steps in 
partnership with local and Federal agencies to secure our Northern 
Border and prepare for all potential threats.
    Multiple times each year, local, State, Federal, and international 
partners participate in drills and exercises conducted along the 
Northern Border to test emergency plans, enhance security measures, and 
ensure a coordinated response during an incident. For example, an 
exercise tested the response to an improvised explosive device (IED) at 
the Soo Locks along Lake Superior requiring a response from the bomb 
squads with the Michigan State Police and the Sault Ste. Marie Ontario 
Police Department. This past August, an exercise was held along the 
Detroit River involving nearly 30 agencies from the United States and 
Canada to test a multi-jurisdictional and multi-agency response to an 
explosion and subsequent oil spill in international waters.
    Many emergencies not only require a coordinated response, they also 
frequently require additional resources to be brought in as the 
affected jurisdiction's capabilities are exceeded. This is why Michigan 
is taking proactive measures to form an international mutual aid 
agreement with our Canadian partners.
    A few months ago, I had the opportunity to participate in a cross-
border mutual aid executive seminar in Port Huron, Michigan with 
participants representing all levels of government and the private 
sector from the United States and Canada. Throughout the seminar, we 
discussed opportunities to collaborate resources and planning 
initiatives across the border, challenges associated with international 
mutual aid including legal concerns, as well as potential next steps 
toward solidifying a cross-border mutual aid agreement.
    Initiatives are also underway at the National level to make a 
cross-border mutual aid agreement a reality for Michigan and other 
States. For example, I serve as a member of the North American Mutual 
Aid Work Group with the National Emergency Management Association 
(NEMA), which is making significant progress in establishing the 
framework for a cross-border mutual aid agreement. This past week, I 
attended a meeting in Chicago hosted by the Federal Emergency 
Management Agency (FEMA) Region V Office that brought together 
representatives from several States and Canada to discuss the next 
steps in establishing an international mutual aid agreement.
    While there is still work to be done, I am confident by the 
progress we have made thus far and I look forward to further developing 
our capabilities in partnership with Canada to prevent, deter, respond 
to, and recover from all hazards.

                                CLOSING

    Protecting Michigan's border and citizens requires a proactive and 
coordinated approach from local, State, Federal, Tribal, and 
international partners. As portrayed by the many initiatives I shared 
today, the State of Michigan works in close partnership with all levels 
of government and seeks new avenues to ensure the security of our 
border and safety of our citizens. Thank you again for the opportunity 
to testify today and I look forward to any questions you may have.

    Mr. Bilirakis. Thank you, sir. Appreciate it. Thank you 
very much.
    Commissioner Austin, you are recognized for 5 minutes. 
Thank you, sir.

 STATEMENT OF DONALD R. AUSTIN, ADMINISTRATION DIVISION, FIRE 
                  DEPARTMENT, CITY OF DETROIT

    Mr. Austin. Thank you.
    Chairman Bilirakis, Congressman Hansen Clarke, I want to 
thank you for the opportunity to make a presentation to you 
about the great city of Detroit and its fire department.
    Again, I am the fire commissioner of Detroit City Fire 
Department. I have been on the job 158 days as of today and 
look forward to moving this agency into an all-hazard response 
organization.
    My background in the fire service over the last 30 years 
began in the Los Angeles Fire Department, where, as you 
indicated, I rose to the rank of assistant chief. I have a 
background, in addition to the main fire service discipline of 
fire fighting and delivering EMS services, in the aviation and 
maritime domain, working in that area doing homeland security.
    In my 30 years, I have been involved in large-scale and 
major emergencies from wild land fires, earthquakes, multi-
casualty incidents, civil unrest, aircraft accidents, and 
maritime emergency exercises. In addition to that, I have been 
an EMT.
    I am a student of the National Response Framework and the 
National Incident Management System. I have operated as a 
unified incident commander, agency representative, and many 
other positions in the incident command structure. I have 
worked with many fire departments in the United States as a 
promotional exam panelist participant and consulted 
internationally by providing aircraft rescue firefighting 
assessment capabilities for the El Dorado Nuevo Airport in 
Bogota, Colombia.
    The main thrust of my testimony, however, before this 
committee is to highlight the needs to support grant funding to 
increase organizational capability and preparedness. This is 
extremely important because of the fiscal challenges facing the 
city of Detroit today.
    Detroit, as you know, is an important transportation hub. 
It has three international border crossings--the Ambassador 
Bridge, Detroit-Windsor Tunnel, and the Michigan Central 
Railway Tunnel, linking both Detroit and Windsor, Canada.
    The Ambassador Bridge is the single-busiest border crossing 
in North America, carrying approximately 27 percent of the 
total trade between the United States and Canada. The Detroit/
Wayne County Port Authority imported and exported over 17 
million tons of cargo. This accounted for over 5,800 jobs 
directly, 4,500 jobs indirectly, and over $200 million in State 
and local taxes. Additionally, $164 million of business 
revenue.
    The Detroit River is the southern border of the city, and 
its interruption could impact the economy regionally. Detroit 
River represents an international border between the United 
States and Canada. It is 32 miles long, over 29 ports, and only 
618 nautical miles from the Atlantic Ocean via the St. Lawrence 
Seaway.
    Eighty percent of the goods that come into the United 
States come in through a port. Ports are very vital to this 
economy. My city, Detroit, although struggling during these 
fiscally difficult times, is on a path of rebirth. The city of 
Detroit is winning efforts to lure the region's growth 
companies downtown with business tax incentives, entertainment 
in the international riverfront, and repopulating their inner 
city by moving residents downtown.
    In addition, we have world headquarters, GM, which is a 
major defense contractor, world headquarters for Compuware, 
Quicken Loans. Recently, Blue Cross Blue Shield has moved over 
5,000 employees into downtown Detroit. We are on the rise 
again. Additionally, there are two Fortune 500 companies, 
American Axle and Manufacturing and DTE Energy.
    While these are very positive signs of Detroit turning the 
corner, many difficult days lie ahead. The population declined 
by 25 percent, or 200,000 residents, in the last 10 years, 
leaving many vacant and abandoned structures to contend with. 
Seventy percent of the fire incidents occur in vacant abandoned 
dwellings.
    Mayor Bing is working feverishly to overcome the structural 
deficit and return the city to financial health. The 
department, under my leadership, is working hard to remake 
itself into an organization that can meet the challenges of a 
new Detroit and the threats that have become a reality of the 
21st Century.
    The Detroit Fire Department has about 1,400 personnel, 985 
firefighters, over 240 EMS technicians. We deploy only 236 
firefighters on any given day across 44 fire stations and 
respond to over 30,000 fire calls annually and 130,000 EMS 
calls. In addition to the traditional fire service disciplines, 
we provide hazardous materials, urban search and rescue, and a 
limited maritime and aviation domain capability.
    Speaking to the maritime domain capability, the fire 
department has one fire boat, the Curtis Randolph, built in 
1979. It is a Class-A fire boat, the only fire boat on the 
Detroit River and in southern Michigan--southeastern Michigan, 
I am sorry, with a pumping capability of over 10,000 gallons 
per minute.
    I am going to review very quickly three incidents that 
occurred since 1999. February 2, 1999, the Curtis Randolph 
responded to a boiler explosion and fire at the Ford Motor 
Company Rouge power plant. That accident killed 6 workers and 
injured 14. Our fire boat pumped water to keep that operation 
going for over 90 days.
    During that time frame, there was a fire, and the Curtis 
Randolph is the only fire boat ever to fight a fire on foreign 
shores. Windsor, Canada, officials called on the Curtis 
Randolph in April 1999 to assist in extinguishing a fire of a 
hotel on the Windsor riverfront. The fire boat did respond at 
then-Mayor Archer's request and assisted in that 
extinguishment.
    Additionally, and last, as an example, in August 2003, as 
you recall that there was a major power outage in the Northeast 
quadrant of the country. The United States Steel production 
operations were impacted. Their blast furnaces require water to 
keep them operational.
    The Curtis Randolph again responded and pumped water to 
assist in them continuing their operations. Again, if either of 
those would have shut down, that would have been a severe 
impact--jobs lost or people laid off, not getting checks.
    I am going to move to some efforts quickly here.
    Mr. Bilirakis. So, yes, we have got to wrap up. So----
    Mr. Austin. Okay.
    Mr. Bilirakis. If you can do it in a minute, that would be 
great.
    Mr. Austin. In a minute. We are reaching out here within 
Detroit to partner with our neighbor fire agencies. There are 
over 1,000 fire departments. Many are volunteer fire 
departments, which make it a challenge.
    But we have relationships with the United States Coast 
Guard, the 51st Weapons of Mass Destruction Civil Support Team, 
United States Customs, and so forth and so on. So, with that, I 
would like to say that we look forward and I welcome the 
opportunity to make any additional comments and answer any 
questions you may have.
    [The statement of Mr. Austin follows:]

                 Prepared Statement of Donald R. Austin
                            October 28, 2011

    My name is Donald R. Austin. I am the executive fire commissioner 
of the Detroit Fire Department. I have been on the job 158 days as of 
today and look forward to making this Department an ``all hazards'' 
response organization.
    My background in the fire service began over 30 years ago in the 
Los Angeles Fire Department. I rose to the rank of Assistant Chief in 
the Los Angeles Fire Department and have a background in the aviation 
and maritime domain as well as the traditional fire service discipline. 
In that capacity, I have been involved in large-scale emergencies from 
wild land fires, earthquakes, multi-casualty incidents, civil unrest, 
simulated aircraft accidents, and maritime emergency exercises. In 
addition to being a fire fighter, I was an emergency medical technician 
most of my fire service career.
    I am a student of the National Response Framework and the National 
Incident Management System (NIMS). I have operated as a unified 
incident commander, agency representative, and in many other incident 
command positions. I am certified in ICS 100, 200, 300, 400, 700, and 
800 and have taken additional NIMS courses in the course of my fire 
service career. I have worked with many fire departments in the United 
States as a promotional examination panel participant, and consulted 
internationally by providing an Aircraft Rescue and Fire Fighting 
capability assessment for the El Dorado Nuevo Airport in Bogota, 
Columbia. I bring this fire service experience to the Detroit Fire 
Department and the city of Detroit at the Honorable Mayor Dave Bing's 
request.
    The main thrust of my testimony before this committee is to 
highlight the need for support of grant funding to increase 
organizational capability and preparedness. This is extremely important 
because of the fiscal challenges facing the city and region. Our 
ability to manage day-to-day fire and emergency medical incidents 
within our allotted budget is becoming more difficult. We are currently 
projecting a $14 million deficit at the close of this fiscal year. This 
lack of funding will inherently reduce the level of service on a daily 
basis and make it more difficult to respond to incidents of National 
significance.
    The city of Detroit located in southeastern Michigan is a city of 
over 700,000 residents with an area of 139 square miles. Detroit 
completely encircles the cities of Hamtramck and Highland Park. The 
Detroit Tri-County area of Wayne, Oakland, and Macomb counties has a 
population of 3,863,000, as of the 2010 census, with an area of 1,967 
square miles. Detroit is the largest city in the State of Michigan and 
the seat of Wayne County. Detroit has three of the four major league 
professional sports teams located in downtown. Detroit is known by many 
nicknames to include Arsenal of Democracy, the Motor City, Motown, and 
America's Automotive Capital to name a few.
    Detroit is an important transportation hub. It has three 
international border crossings, the Ambassador Bridge, Detroit-Windsor 
Tunnel, and the Michigan Central Railway Tunnel, linking Detroit to 
Windsor, Ontario. The Ambassador Bridge is the single-busiest border 
crossing in North America, carrying 27% of the total trade between the 
United States and Canada.
    The Detroit Wayne County Port Authority imported and exported over 
17 million tons of cargo. In 2005 this accounted for 5,851 direct jobs 
and 4,505 indirect jobs; $201,629,000 in State and local taxes and 
business revenue in excess of $164 million. The Detroit River is the 
southern border of the city and also represents an international border 
between the United States and Canada. The Detroit River is a 32-mile-
long river with over 29 port terminals. Detroit is 618 nautical miles 
inland from the Atlantic Ocean via the Saint Lawrence Seaway.
    My city, although still struggling during these fiscally difficult 
times, is on a path of rebirth. The city of Detroit is winning efforts 
to lure the region's growth companies downtown with business tax 
incentives, entertainment, an International Riverfront, and 
repopulating the inner city with residents living downtown. The world 
headquarters of Compuware (over 2,500 employees), Quicken Loans (over 
4,000 employees), and General Motors (over 4,600 employees) are located 
in downtown Detroit. Additionally, Fortune 500 companies like American 
Axle & Manufacturing and DTE Energy are located in Detroit. Blue Cross 
recently completed a move into downtown relocating upwards of 5,000 
employees.
    While these are very positive signs of Detroit turning the corner, 
many difficult days lay ahead. The population declined by 25% or 
200,000 in the last 10 years. This has left many vacant/abandoned 
structures to contend with. The number of vacant/abandoned structures 
is said to be as high as 80,000. In fact, the last line of duty death 
involving fire fighter Walter Harris occurred in a vacant single-family 
dwelling after two previous fires. Seventy percent of the fire 
incidents occur in vacant/abandoned structures.
    The severe population decline not only left many vacant structures 
in the city, it represents an erosion of the property tax base, reduced 
city income tax, and State revenue-sharing necessary to provide the 
level of services for a new Detroit. However, it remains a fact that 
public safety services, fire, EMS, and law enforcement constitute more 
than 50% of the city's general fund expenditures, which exceeds $1 
billion dollars.
    Mayor Bing is working feverishly to overcome a structural deficit 
and return the city to financial health. Mayor Bing's personal 
commitment is illustrated in the fact that he has accepted a salary of 
$1 a year. The Fire Department under my leadership is working hard to 
remake itself into an organization that can meet the challenges of a 
new Detroit and the threats that have become the reality of the 21st 
Century. We are diligently working to become fully NIMS-compliant and, 
our members are currently enrolled in FEMA on-line NIMS training for 
ICS 100, 200, 700, and 800 courses.
    The Detroit Fire Department has 1,400 personnel and approximately 
985 fire fighters and 240 emergency medical personnel. We deploy 236 
fire fighters in 44 fire stations across the city and respond to over 
30,000 fire calls and 130,000 EMS calls for service annually. In 
addition to the traditional fire service, we provide hazardous 
materials, urban search and rescue, a limited maritime and aviation 
domain capability.
    The average age of the fire station buildings is 81 years old with 
the oldest active fire station being 118 years old. This represents a 
significant draw on a budget of $186,400,000 of which 95% is salaries 
and benefits. The average age of my fire fighters is 43\1/2\ years, 
which result in a pretty significant injury rate and negatively impacts 
my overtime budget. The 21 ambulances have an average of 149,000 miles 
and break down frequently. The logistical support staff which maintains 
fire and EMS apparatus is equally challenged and has a difficult time 
doing preventive maintenance.
    The Fire Department has one fire boat; the Curtis Randolph built in 
1979. It is the only Class A fire boat on the Detroit River and in 
Southeastern Michigan with a pumping capacity of 10,000 gallons per 
minute. The response district for the Curtis Randolph is Windmill 
Pointe at the mouth of Lake St. Clair south to the Trenton Turning 
Basin. The fire boat will be taken out of service on November 1, 2011, 
and returned to service in June 2012.
    On February 2, 1999, the Curtis Randolph responded to a boiler 
explosion and fire at the Ford Motor Company, Rouge Power Plant. This 
fire killed 6 and injured 14 workers. The fire boat supplied water for 
approximately 3 months while repairs to the plant were made. Our 
response allowed operations to continue relatively uninterrupted.
    The Curtis Randolph is the only U.S. fire boat to ever fight a fire 
on foreign shores. Windsor, Canada officials called on the Curtis 
Randolph in April 1999 to assist in extinguishing a fire at the 
riverside Ramada Inn. Mayor Dennis Archer called the fire boat from the 
Rouge Power Plant incident to the Windsor hotel fire.
    The northeast electrical power outage of August 2003 threatened 
United States Steel production operations. The blast furnaces used in 
the process required water to keep them operational. The Curtis 
Randolph was placed into fire service to assist with supplying river 
water to the plant. This incident required the fire boat to pump river 
water to keep its blast furnaces operational during the several days of 
the electrical grid outage.

   VULNERABILITIES TO HOMELAND SECURITY AND EMERGENCY PREPAREDNESS, 
                      RESPONSE, AND COMMUNICATIONS

    In addition to providing an emergency response capability to the 
residents of Detroit, Detroit being situated on an international water 
border should have maritime capabilities to respond to threats to 
security and natural disasters that could impact the continuity of 
operations of businesses and the city.
    The Detroit Fire Department is not especially situated to respond 
to a mass casualty scenario. This is an identified weakness in our 
``all hazards'' capability, which sooner than later must be addressed.
    Below are some identified critical infrastructure and disaster 
scenarios in the Detroit area that would require a response by the 
Detroit Fire Department.


------------------------------------------------------------------------
         Infrastructure              Incident Type        Consequence
------------------------------------------------------------------------
Renaissance Center..............  Fire..............  Approximately
                                  \1\ VBIED.........   13,000 occupants;
                                  \2\ CBRNE.........   GM World
                                                       Headquarters; GM
                                                       is a major
                                                       defense
                                                       contractor;
                                                       tallest hotel in
                                                       the United States
                                                       and Michigan's
                                                       tallest building.
Electrical Grid.................  Fires.............  Failure of city
                                                       water main
                                                       pressure could
                                                       occur and
                                                       negatively impact
                                                       downtown.
Water Main Failure..............  Fires.............  Major outage could
                                                       severely impact
                                                       downtown high-
                                                       rise
                                                       infrastructure.
Hart Plaza and the Detroit        Multi-casualty....  Depending on the
 Riverfront.                                           number of
                                                       simultaneous
                                                       events could
                                                       attract more than
                                                       1 million
                                                       visitors.
Detroit River...................  Oil Spill.........  Damage to the
                                                       environment and
                                                       ecosystem.
Maritime Commerce...............  Vessel Fire.......  Blockage of the
                                  Loss of propulsion   river.
Bridges and Tunnels.............  Terrorist Attack..  Collapse.
Sports Stadiums.................  VBIED.............  Ford Field
                                  CBRNE.............   capacity is
                                                       65,000;
                                                      Comerica 40,000;
                                                      Joe Louis 20,000.
North American International      Multi-casualty....  High-media
 Auto Show.                                            coverage; patient-
                                                       generating event.
------------------------------------------------------------------------
\1\ Vehicle Borne Improvised Explosive Device.
\2\ Chemical, Biological, Radiological, Nuclear, and Explosive.

                  EFFORTS TO SHORE UP VULNERABILITIES

    Since the beginning of my tenure as the Executive Fire 
Commissioner, I have been actively seeking to expand this 
organization's relationship with area fire departments by becoming a 
member of the Southeastern Michigan Fire Chiefs Association. The 
Detroit Fire Department has reached out to Southfield, Warren, 
Dearborn, Highland Park, and Hamtramck Fire Department seeking to enter 
into a Mutual Aid agreement for reciprocity of fire and rescue 
services. We did not enter into an agreement relative to emergency 
medical incidents because our EMS resources are strained on a daily 
basis and our fire fighters are not EMT-trained. However, it is my goal 
to move the organization in this direction. Eighty-five percent of the 
workload in the United States fire service is delivering emergency 
medical services to the communities they serve.
    We have a relationship with many agencies such as:
  <bullet> US Coast Guard Sector Detroit, Commander Jeffrey E. Ogden, 
        Captain of the Port;
  <bullet> 51st Weapons of Mass Destruction Civil Support Team;
  <bullet> City of Windsor Fire and Rescue Services, Fire Chief Bruce 
        Montone;
  <bullet> U.S. Customs and Border Protection, Detroit Sector;
  <bullet> Michigan Urban Search and Rescue Task Force 1;
  <bullet> Hart Medical EMS Services--A Private Ambulance Company;
  <bullet> Detroit Emergency Medical Service Authority;
  <bullet> Detroit Medical Center;
  <bullet> Detroit/Wayne County Port Authority, John Jamian, Executive 
        Director.
    The Department is also considering joining the Michigan Emergency 
Management Assistance Compact (MEMAC). MEMAC is designed to help 
Michigan's 1,776 local political subdivisions share vital public safety 
services and resources more effectively and efficiently. Neither the 
State nor any local jurisdiction can afford to acquire and maintain all 
the manpower, equipment, and other resources that would be necessary to 
respond to every possible emergency or major disaster, especially 
terrorist acts involving chemical, biological, or nuclear weapons of 
mass destruction.
    Since my appointment as Executive Fire Commissioner, the Department 
participated in the ``Detroit River Readiness 2011'' full-scale 
exercise. More than 65 U.S. and Canadian Federal, State, and local 
emergency response partner agencies took part in a full-scale, cross-
border security, mass rescue and oil spill response exercise, on Aug. 
23 and 24 along the Detroit River Corridor from Trenton north in the 
river to Detroit and Windsor.
    The Fire Department also works collaboratively with private 
ambulance services to support large-scale downtown events such as the 
fireworks display during River Days, and other downtown public events.
    Through the leadership of Mayor Bing one public safety headquarters 
is being built to house the Fire and Police Departments, Homeland 
Security, and elements of the Michigan State Police. The co-locating of 
these public safety agencies will improve inter-relationship, 
coordination, and unified command operations, which will improve our 
ability to manage an ``all-risk'' emergency incident.
    The Detroit Fire Department submitted grants for equipment and 
apparatus under the Assistant to Fire Fighter Grant Program (AFG). The 
primary goal of the AFG is to meet the emergency response needs of fire 
departments and emergency medical service organizations. There was over 
$404,000,000 available in grant funds for 2011. Items requested by the 
Detroit Fire Department include:
  <bullet> 3 Pumper/Engine: $1,500,000;
  <bullet> 1 Ladder Truck: $750,000;
  <bullet> 977 Personal Protective Equipment: $2,071,240;
  <bullet> 100 Automatic External Defibrillator: $150,000;
  <bullet> 7 Air Cascade Filling Systems: $494,102;
  <bullet> Total: $4,965,342.
    The Public Safety Foundation of Detroit has recently expanded to 
include the Detroit Fire Department. This is a significant development 
for our service. Under this umbrella my agency can submit request for 
funding various equipment needs and possibly the costs-sharing 
associated with the aforementioned grants.
    The Detroit Fire Department is comprised of dedicated men and women 
who strive everyday to deliver the best service to the citizens of this 
great city. We have a Mayor and City Council who has prioritized public 
safety as No. 1. We in the fire and EMS service recognize that even 
with such prioritization for public safety there are other essential 
services a city must provide its citizens. Times have been difficult 
but because of our fire service ``make it happen'' attitude we continue 
to serve our community with professionalism and pride.
    As the Executive Fire Commissioner for the Detroit Fire Department, 
I want to thank the committee for offering me an opportunity to present 
some insight into this great Department, which I am proud to be a 
member of.

    Mr. Bilirakis. Thank you, Commissioner. Thanks for coming 
home, too.
    Mr. Austin. Yes.
    Mr. Bilirakis. Appreciate that. That is important.
    Okay, Mr. Lundy, you are recognized for 5 minutes.

   STATEMENT OF R. DARYL LUNDY, DIRECTOR, OFFICE OF HOMELAND 
       SECURITY AND EMERGENCY MANAGEMENT, CITY OF DETROIT

    Mr. Lundy. Once again, good morning, Mr. Chairman and 
Congressman Clarke.
    On behalf of Mayor Bing, he thanks you for being here 
today.
    Again, my name is Daryl Lundy. I am the director of 
homeland security and emergency management for the city of 
Detroit. I am pleased to be here to testify on the state of the 
Northern Border and the city of Detroit.
    I have submitted my full testimony and ask that it be part 
of this formal record.
    Mr. Bilirakis. Without objection, so ordered. Thank you.
    Mr. Lundy. Sir, I would like to begin by discussing our 
working relationship with the many Federal partners located in 
and operating along the Detroit border. I will start out by 
going over some of the many, many events as to why we have to 
work together on a day-to-day basis as well.
    Detroit is host to a special event roughly every 60 to 90 
days. Beginning in January, for example, we will kick off 15 
days of the International Auto Show. This will be followed by 
an event, the International Fireworks that takes place down on 
the Detroit River. Now we get roughly 1 million viewers 
downtown for that evening firework on the Detroit side, and on 
the Canadian side, roughly about 800,000 are viewing.
    In addition to that, we have the Detroit Free Press 
Marathon that takes place--took place just a few weeks ago. 
This is an annual event that typically has about 25,000 to 
27,000 individuals. They run throughout the city of downtown 
Detroit. They cross the border into Canada, and then they also 
then return back into the United States.
    We host the Turkey Trot Run, which is followed by our 
Thanksgiving Day parade. Once again, roughly a million 
spectators lining the Thanksgiving Day parade route downtown.
    In 2012, we will once again host the Detroit Grand Prix. 
The Grand Prix is held on Belle Isle, which is an island that 
basically sits right in the middle of the Detroit River. Along 
with this, we host at Belle Isle the Gold Cup Hydroplane 
Championship Races on a yearly basis.
    Most importantly, we just hosted the Major League Baseball 
Division, as well as the American League Series, just to name a 
few events that we are constantly doing here in the city of 
Detroit.
    Jointly, we develop----
    Mr. Bilirakis. How about the Lions?
    [Laughter.]
    Mr. Lundy. How about those Lions?
    [Laughter.]
    Mr. Lundy. Denver will go down this weekend.
    [Laughter.]
    Mr. Clarke. Yes, that is right. Prophesize.
    Mr. Lundy. Absolutely, we have hope. So, jointly, we 
develop with our Federal, State, regional, and our Canadian 
counterparts our operational plans for all of these events, as 
well as sharing information and intelligence and also providing 
operational support. That is many times even swapping 
individuals to work each other's operational centers to make 
sure that we have good connectivity during these events.
    In addition, too, we have members from our office that sit 
on the U.S. attorney's ATAC, the Anti-Terrorism Advisory 
Council. We have members who sit on the U.S. Coast Guard's 
Maritime Security Committee. We have Detroit Police 
representatives in the Joint Terrorism Task Force amongst also 
having cross-border members who sit on each other's emergency 
management and homeland security teams and attend their 
regularly scheduled meetings as well.
    Sir, in February of this year, our department participated 
in a Canadian exercise called Central Gateway. Central Gateway 
was a contact notification drill and a tabletop exercise.
    It did have a field component in which our Detroit police 
and fire and emergency medical personnel participated with 
their counterparts, the SRT teams, our harbor master dive 
teams, and the emergency medical, as I stated. We shared in 
some lessons learned there.
    Detroit itself, particularly, we, in the emergency 
management, actually focused on the communications system. We 
are now sharing and working with a Canadian system they allowed 
us to use called Fusion Point. It is a sister system to what we 
use here in the State for emergency management called E-Team. 
It is a situational sharing system.
    This event was a lead-in to the joint U.S. Coast Guard and 
Detroit exercise called River Readiness--Detroit River 
Readiness--that you have heard about already. River Readiness 
was a regional and international emergency response exercise 
intended to enhance our local, as well as our regional and our 
international response, and our readiness and cooperation by 
building on the successes from the previous exercises.
    The Detroit River Readiness scenario again included a major 
terrorist event along the international border, included 
chemical materials, medical response, and really tested both 
our city, our county, the provincial as well as our Federal 
departments, our coordination capabilities, and response.
    While there were many, many areas of success during this 
exercise, we have also identified gaps and vulnerabilities. We 
are working now toward the correction of those many.
    Sir, Detroit is a high-risk, high-density city. It shares, 
as you have heard, the many homeland security threats itself 
against terrorist attacks. Detroit stands out from the rest of 
the Nation, of course, because of the size of our immigrant 
population, along with this international border that we have 
been speaking about. It creates a very--a potential risk for 
terrorists to not only use Detroit as a place to attack, but 
also to conceal terrorist support networks and also a place to 
recruit new members and supporters.
    Detroit and its border brings about a unique challenge as 
we attempt to prevent, protect, and share and respond to 
potential threats to our population and to the many hazardous 
material sites and critical infrastructure that we have here in 
the city.
    Sir, as a recommendation, I just want to say that I really 
encourage both the Federal as well as the State government in 
its policy to direct our primary grant funding, which is the 
UASI grant, to be focused at this high-density, high-risk 
location, as I believe that DHS is focusing or it planned on 
focusing that money.
    Most importantly, our readiness posture, if we don't 
continue with that funding and having that funding directed 
here at this key area, not only will we not move forward here 
in the future, we will start to take steps backward in the 
readiness that we have acquired over these past couple of 
years.
    Sir, I know my time has run out. So I will just conclude at 
this time.
    [The statement of Mr. Lundy follows:]

                  Prepared Statement of R. Daryl Lundy
                            28 October 2011

    Good morning, Mr. Chairman and Members of the committee. My name is 
Daryl Lundy, director of the Office of Homeland Security and Emergency 
Management for the city of Detroit. As director, I am responsible for 
Plans and Operations related to terrorism, and catastrophic 
emergencies, protection of Critical Infrastructure and Key Resources, 
managing the Emergency Operations Center, managing the Department of 
Homeland Security Grants Program and coordination with our private 
partners and partners across the border in Canada.
    I am pleased to be here today testifying on the state of the 
Northern Border and funding to the city of Detroit. I have submitted my 
full testimony which I ask be made part of the hearing record.

                 FEDERAL, STATE, AND LOCAL COORDINATION

    I would like to begin by discussing our working relationships with 
the many Federal partners located in and operating along the Detroit 
border. Detroit is host to a special event every 60-90 days, beginning 
in January for 15 days of the International Auto Show, followed by the 
International Fireworks with roughly 1 million viewers on the Detroit 
River and 800,000 on the Canadian coastline of the Detroit River. We 
host the Detroit Free Press Marathon in which 20,000 runners navigate 
in Detroit into Windsor, Canada and return. We host the Turkey Trot Run 
followed by the Thanksgiving Day Parade which lines the route in 
downtown with approximately 1 million viewers. In 2012, we will again 
host the Detroit Grand Prix on Belle Isle located in the middle of the 
Detroit River as well as the Gold Cup Hydroplane Races. Most recently 
we hosted the Major League Baseball Division and American League 
Series.
    Jointly, we develop operational plans, share intelligence, and 
provide operational support in a combined effort to ensure the safety 
of our citizens and guests at these many events. Our working 
relationship further includes participation as a member of the U.S. 
Attorney Anti-Terrorism Advisory Council (ATAC) and the U.S. Coast 
Guard Area Maritime Security Committee. In addition, the Detroit Police 
has a member who participates on the Federal Bureau of Investigations, 
Joint Terrorism Task Force.
    In addition, to the Federal partners, Non-Governmental 
Organizations, private sector partners, and Canadian counterparts are 
extremely engaged and important to the success of these events and the 
protection of our borders. Private sector partners chair our Local 
Emergency Planning Committee, information-sharing advisory council, 
critical infrastructure and key infrastructure council and are members 
in our Emergency/Event Operations Center during events and many times, 
provide use of their operation center to augment our operations. Our 
working relationship with Canadian Homeland Security and Emergency 
Management coordinators are routine. We not only participate in joint 
training exercises, we attend meetings, conferences, and working groups 
with each other in the United States and Canada.
    In February of this year, our department participated in a Canadian 
Exercise, Central Gateway. Exercise Central Gateway was a contact/
notification drill, communications and table-top exercise, with a field 
exercise component as part of each of the Incident Sites/Events. The 
scenario was based upon a major event surrounding a terrorist attack in 
the area of the Detroit River and a resulting hazardous materials 
spill/leak in the LaSalle, west Windsor, and Detroit area that directly 
impacted at least three county municipalities, the city of Windsor, and 
the Detroit Metropolitan area. The affects of the hazard had potential 
to have a short- and long-term effect upon transportation through the 
region and across the international border. Additional secondary events 
included health concerns resulting from the on-going flu season, 
threats of severe weather and other emergency events. The primary 
training focus for Detroit was testing the Situational Awareness 
communications between Detroit, Windsor and Essex County, Ontario.
    This event was a lead into the Joint U.S. Coast Guard and Detroit 
River Readiness Exercise. River Readiness was a Regional and 
International Emergency Response Exercise intended to enhance local, 
regional, and international response, readiness, and cooperation by 
building on the success of previous regional exercises in the Ex SPRING 
DAY series over the past 4 years. It also provided a confirmatory and 
audit model in support of the Federal project examining Critical Risk 
Identification and Capability-Based Plans modeling in the Windsor-Essex 
County region. The exercise focused on incident site management: 
Communications systems between the incident site, Emergency Operations 
Centers (EOC) and other centers and staffing; Emergency Information and 
Media Centers and staffing; Traffic Control and Traffic Plans; 
Reception and Evacuation Centers and staffing; and decision-making 
during an emerging situation.
    The scenario included a major terrorist event along the 
international border that included, chemical materials threats and 
impacts; evacuations and registrations; limited access; traffic control 
issues, cross-border issues, environmental and agricultural impacts and 
pollution response; hazardous materials; coordination and control 
issues between city and county municipalities, provincial ministries, 
Federal departments and neighboring U.S. agencies such as Detroit 
Department of Homeland Security and Emergency Management, Michigan 
State Departments, Federal Bureau of Investigations, Customs Border 
Protection, Immigrations and Customs Enforcement, Transportation 
Security Administration, the U.S. Coast Guard, and others.
    While there were many areas of success during these exercises, we 
have identified gaps and weaknesses of items tested and evaluated and 
are attempting to correct them as we move forward.

                       THE NEED FOR GRANT FUNDING

    The following information is submitted as information the city of 
Detroit believes to be relevant in determining our threat, 
vulnerability, and consequences referencing terrorism:
    The United States Office of Management and Budget defines Detroit-
Warren-Livonia as the Metropolitan Statistical Areas (MSA) queried for 
the Urban Area Security Initiative (UASI). Population of the Detroit 
MSA: City of Detroit: 710,000 plus 40,000 visitors daily; Wayne County: 
1.2 million, Michigan's 8th largest city, Livonia at 100,500; Macomb 
County: 832,000 with Michigan's 3rd largest city, Warren with 135, 000 
and the 6th largest city, Sterling Heights at 127,000.
    Metropolitan Detroit has the largest Arab population in the United 
States at 350,000. Over 1,000 Canadian Nurses cross the bridge or 
tunnel daily to work in the Detroit Medical Center and surrounding 
hospitals.
    There are 56 DHS-identified Critical Infrastructure/Key Resource 
facilities in the Detroit and Wayne County UASI. There are many more 
that we locally identify as critical and key sites. There are 302 Sites 
that store or produce extremely hazardous substances, 103 located in 
Detroit and 151 in Wayne County. There are hundreds more throughout the 
UASI region.
    The U.S. Tank Automotive Command (TACOM) located in Warren, MI is 
responsible for Tank Automotive Research, Development, and Engineering.
    Selfridge Air National Guard Base located in Macomb County hosts F-
16's, DHS Air and Maritime Headquarters, Border Patrol Sector Detroit, 
U.S. Coast Guard Aviation, National Guard CH-47's and Civil Air Patrol. 
Selfridge is also host to a bi-annual Air Show.
    The Detroit, Wayne County water border is approximately 37 miles 
long and largely unprotected. Twenty-nine miles are bordered with 
Canada and includes 4 Ports of Entry. Boating along the Detroit River 
is plentiful and boats easily cross United States to Canada and back. 
In addition, Great Lakes Ships transit the Detroit River via Lake Erie, 
Lake St. Clair, and Lake Huron.
    The city of Detroit has 4 international border crossings with a 
waterfront border that makes the largest land- and rail-based foreign 
trade zone in North America. Canada is Michigan's largest foreign 
export market and largest trading partner, with nearly 60% of the value 
of the State's exported goods destined for Canada. About 10% of U.S. 
exports to Canada originate in Michigan. Over half of U.S.-Canada land-
based trade crosses the border in the Detroit region. Canada-U.S. trade 
supports 7 million U.S. jobs, including over 200,000 Michigan jobs.
    The Detroit/Windsor Tunnel is the busiest passenger border crossing 
between the United States and Canada, it ranks in the top 15 border 
crossings nationally and is the largest Northern Border crossing. 
Michigan residents make over 1.4 million visits to Canada, spending 
almost approximately $444,000 million a year. We receive over 12 
million car passengers a year.
    The Ambassador Bridge located in Detroit is the largest-volume toll 
crossing between the United States and Canada which accounts for $90 
billion in annual trade.
    The Detroit/Windsor Truck Ferry carries approximately 100 trucks 
per day of mostly dangerous cargo. The transportation of dangerous 
goods is regulated in both the United States and Canada. Under Michigan 
law, trucks carrying Classes 1, 3, 6, and 7 dangerous goods, i.e., 
corrosives, explosive, etc. are prohibited from the Ambassador Bridge 
and the Detroit/Windsor Tunnel.
    The Detroit River Rail Tunnel operates 25 trains a day with almost 
400,000 railcars annually. There have been incidents where the tunnels 
have been used as a means to enter the United States illegally.
    The Detroit Water and Sewerage Department (DWSD) is the third-
largest water and sewer utility in the United States. DWSD provides 
water service to approximately 1 million people in Detroit and 3 
million people in neighboring southeastern Michigan communities 
throughout Wayne, Oakland, Macomb, St. Clair, Lapeer, Genesee, 
Washtenaw, and Monroe counties. The 1,079-square-mile water service 
area, which includes Detroit and 125 suburban communities, makes up 
approximately 43 percent of the State's population. The Department also 
provides wastewater service to over 700,000 Detroit residents and 2 
million suburban residents in neighboring communities. Wastewater 
service is provided to a 946-square-mile area that encompasses 35 
percent of Michigan's population.
    The Detroit Department of Transportation (DDOT), annual riders is 
2,687,720. The Detroit People Mover is a fully automated light rail 
system that operates on an elevated single track loop in Detroit's 
Business district. The system provides connections between the courts 
and administrative offices of several levels of government, sports 
arenas, exhibition centers, major hotels, and commercial, banking, and 
retail districts. The integration of 8 of the 13 people-mover stations 
into pre-existing structures links over 9 million square feet that can 
be traversed unimpeded by outside elements. Also, future plans indicate 
the construction of a light rail system to run from downtown Detroit to 
our neighboring county.
    Detroit Metro Airport is the 10th-largest airport in the United 
States. Total economic impact (estimated) $5 billion annually and total 
economic impact (estimated) $14 million daily. There are approximately 
3,076,542 international passengers and a total cargo (freight/small 
pkgs, mail) of 487,149,710 lbs.
    Detroit Coleman A. Young International Airport supports 
approximately 17 private jet landings per day with a surge up to 50 
during special events. Yearly average is approximately 6,000 landings. 
This airport lies in the heart of the city surrounded by a rail line 
and high school.
    Marathon Oil Company.--Detroit, Michigan houses Marathon Oil 
refinery, which is the fifth-largest in the United States and Romulus, 
Michigan houses Marathon's terminal and marketing operations. Marathon 
Oil processes 100,000 barrels of crude oil per day, which is refined 
into 50% gasoline, 28% diesel, 17% asphalt, and 5% other products. 
Marathon is currently in the process of expanding the refinery capacity 
to process 115,000 barrels per day from the current 100,000.
    General Motors Corporation World Headquarters reside in the 
Renaissance Center, a 73-story building in the heart of downtown 
Detroit located off the Detroit River, next to the Detroit Windsor 
tunnel, and across from City Hall. In addition to GM, the Renaissance 
Center houses a hotel, many businesses and 2 consulates. Ford Motor 
Corporation World headquarters is located in Dearborn, Michigan.
    Sports Venues include: The Detroit Lions, Ford Field, capacity 
65,000; Detroit Tigers, Comerica Park, capacity 40,000; Detroit Red 
Wings, Joe Louis Arena, capacity 20,066.
    Additional entertainment venues like the Fox Theater, Music Hall, 
Opera House, 3 Casinos also exist next to the above-listed sports 
centers.
    Detroit is a populous city which shares with the homeland the 
common threat of attack by terrorists. Detroit stands out from the rest 
of the Nation in the size of its immigrant population and international 
border, which creates the potential risk for terrorists to use Detroit 
as a place to attack, conceal terrorist support networks, or to recruit 
new members and supporters. Detroit and its border brings about unique 
challenges as we attempt to prevent, protect, share, and respond to 
potential threats.

                           REGIONAL APPROACH

    Over the past 5 years, much of the annual UASI grant has been 
directed to neighbors outside the urban area in support of the regional 
concept. While we have partnered with our neighboring jurisdictions, 
the prioritization of where the funds are dedicated are sometimes not 
the priority of the high-risk, high-density urban area, as defined by 
the MSA. This could be a recipe for disaster. Detroit and Wayne County 
collaborate on many projects along the border by a piecemeal approach 
of combining, Urban Area Security Initiative (UASI) funds, StoneGarden 
Grant funds, and Buffer Zone Grant funds. This is not a practical 
method to continue in light of the elimination of DHS Grant Programs, 
and based upon the expected decreasing dollar amounts for the 2012 
Homeland Security Grant funds. Hence, Detroit's primary grant, the 
Urban Area Security Initiative Grant, previous UASI Grant guidance was 
revised from funding focused at the core city and core county to 
``enhancing regional preparedness in metropolitan areas''. Without a 
clear definition of a ``metropolitan area'', our ``Region'' was 
determined to be all of Southeast Michigan. With 7 jurisdictions to 
receive funding from the UASI grant, Detroit is left with roughly one-
eighth of that year's grant funding. While our focus remains on 
programs that were previously instituted, we must be concerned about 
sustaining and moving forward as we support DHS priorities as well as 
our own known gaps.

               RECOMMEND FEDERAL OR STATE POLICY CHANGES

    I encourage Federal and State policy be changed and enforced to 
direct UASI Grant funds to the intended receivers identified as the 
high-threat, high-density urban area in the DHS Grant Guidance. It is 
my fear that if this does not occur, we will not be able to sustain our 
current strengths and gains. Most importantly, our readiness posture 
will not move forward, putting our citizens and guests in harm's way.

                                SUMMARY

    In summary, Mr. Chairman, we believe that we have made significant 
improvements in working jointly with our many partners--State, Federal, 
Canadian, and private sector. Through exercising, we have validated our 
strengths and identified weaknesses in our readiness posture of 
securing and responding to incidents at our border as well as securing 
our city. Without previous grant funds to augment our local 
jurisdictional dollars, we would not have been able to execute the 
planning, training, and evaluation of those exercises and capabilities. 
This being said, it is imperative that future grant dollars continue 
and be strategically forwarded to the high-risk entities that have 
unique planning and operational needs as we do here on our U.S.-
Canadian border.
    Thank you for the opportunity to share with you the work of Mayor 
Dave Bing and the Detroit Team. I'm proud to serve the citizens and 
guests who visit and transit Detroit daily. We will continue to do all 
that we can, with what we have to strengthen securing our border and 
Nation.

    Mr. Bilirakis. Thank you, sir. Thank you.
    You have a champion here with regard to that grant, that is 
for sure. We will continue to work on that.
    Mr. Buford, you are recognized for 5 minutes. Thank you 
again, sir.

 STATEMENT OF JAMES P. BUFORD, P.E.M., DIRECTOR, DEPARTMENT OF 
   HOMELAND SECURITY AND EMERGENCY MANAGEMENT, WAYNE COUNTY, 
                            MICHIGAN

    Mr. Buford. Good morning, Mr. Chairman, Congressman Clarke.
    My name is James Buford. I am director of homeland security 
and emergency management for the county of Wayne.
    As director, I am responsible for the emergency operation 
plan and the emergency operations center in Wayne County. I am 
also responsible for all other planning to mitigate potential 
acts of terrorism, disasters, and emergencies. I am responsible 
for managing the Homeland Security Grant funds allocated to 
Wayne County.
    I am honored to be here today to testify on the state of 
the Northern Border and funding to Wayne County. I have 
submitted my full testimony, which I ask to be made a part of 
the hearing record.
    Mr. Bilirakis. Thank you. So ordered.
    Mr. Buford. I would like to start by saying that I honor 
all the men and women in uniform, whether military or civilian, 
who protect us every day from acts of terrorism. I remember on 
9/11, like most of us, exactly where I was during that time. I 
was a commander of the Wayne County Sheriff's Department at 
their Road Patrol. I remember law enforcement before that day, 
and I have seen how it has changed since then.
    I remember that law enforcement had its own lanes for 
Federal, State, and local. I also know that that has changed 
significantly since that fateful day. I do believe that we have 
a much better environment for information sharing amongst law 
enforcement agencies.
    Wayne County and the city of Detroit share an international 
border with Essex County and the city of Windsor. There are 
many events that occur on the Detroit River between these 
communities, as you have heard earlier, including the shipping 
that occurs annually.
    This requires coordination between all law enforcement, 
fire, and EMS agencies along the border. We also have several 
large hospital systems that provide treatment to Canadian 
citizens every day.
    Homeland Security Grant funding has come to this area, and 
it is provided by the Homeland Security Grant Program. The 
metropolitan statistical area, MSA, includes Detroit, Wayne 
County, Livonia, and the city of Warren. These communities have 
the largest populations in the core urban area. It was 
determined by the Department of Homeland Security that these 
core urban areas were at the highest risk for potential 
terrorist attacks.
    In the Detroit urban area, we have received funding 
intended for the high-risk mitigation--for the risk mitigation. 
We use allocated grant funds to assist the public safety 
agencies to prevent and protect the public from acts of 
terrorism.
    We have educated the public about emergency preparedness 
and recognition of potential terrorist activities. During these 
depressed economic times, these activities would not have been 
able to be taking place without the Homeland Security Grant 
funding. The need to have a strong and resilient Northern 
Border will rest with those entrusted with protecting us.
    Within the first few years of Homeland Security Grant 
Program, the State of Michigan recommended a regional approach 
to grant funding. The core urban area was asked to add the 
additional five counties in southeast Michigan, and this group 
exists today as the Urban Areas Security Initiative Regional 
Planning Board.
    We have developed a regional strategy and use it as a guide 
for the project allocation of Homeland Security Grant funds. 
The core county has found that while the regional group is a 
good concept, it does not provide for the best use of ever-
shrinking financial resources, given that the highest risk 
remains in the core urban area.
    The Northern Border has had additional grant funds used for 
patrol efforts. Operation Stonegarden grant provides overtime 
and backfill for patrol efforts by communities along Lake St. 
Clair, Lake Erie, and the Detroit River border area. It allows 
for equipment to be purchased to assist with these patrols.
    This is a coordination of the Wayne County Sheriff Marine 
Patrol, along with local communities on their shore patrol. 
Information from these patrols is given to the Customs and 
Border Patrol Division of DHS for their review.
    We have also a State-wide shared channel radio system that 
allows for interoperable communications throughout the region 
and the State. Wayne County was the recent recipient of the 
Border Interoperability Communications Grant Demonstration 
Project. Once completed, this will allow for an even greater 
level of radio communications interoperability with our 
Canadian partners.
    Wayne County has also used Homeland Security Grant funding 
to help develop a border surveillance camera system along the 
international border. This system will be made available to 
local, State, and Federal law enforcement.
    I encourage a review of the way the Homeland Security Grant 
Program dollars are distributed in the Detroit urban area so 
that these shrinking resources can be used as intended on the 
high-threat, high-density areas. If this is not done, I believe 
that we will be not giving the citizens the best protection 
that they deserve.
    In summary, Mr. Chairman, Wayne County realizes that we are 
an integral part of the surveillance and security of our share 
of the Northern Border. This responsibility is taken very 
seriously, and we continue to work with all our public and 
private partners to strengthen our border area.
    The planning, training, exercising to complete this mission 
are greatly assisted through the use of Homeland Security Grant 
dollars. Without these dollars, it significantly reduces our 
ability to have a resilient U.S.-Canadian border.
    Thank you for the opportunity to share with you the work of 
the hard-working men and women of Wayne County. We will always 
work to protect the residents, workers, and visitors by 
securing the international border in Wayne County.
    Thank you very much.
    [The statement of Mr. Buford follows:]

                 Prepared Statement of James P. Buford
                            28 October 2011

    Good morning Mr. Chairman and Members of the committee. My name is 
James Buford, director of Homeland Security and Emergency Management 
for the county of Wayne. As director I am responsible for the Emergency 
Operation Plan and Emergency Operation Center in Wayne County. I am 
also responsible for all other planning to mitigate potential acts of 
terrorism, disasters, and emergencies. I am responsible for managing 
the Homeland Security Grant funds allocated to Wayne County.
    I am honored to be here today and to testify on the state of the 
Northern Border and funding to Wayne County. I have submitted my full 
testimony which I ask be made part of the hearing record.

                 FEDERAL, STATE, AND LOCAL COORDINATION

    I would like to start by saying that I honor all of the men and 
women in uniform whether it is military or civilian, who protect us 
every day from acts of terrorism. I remember 9/11 like most of us and 
exactly what I was doing at that time. I remember law enforcement 
before that day and I have seen how it has changed since then. I 
remember that law enforcement had its own lanes for Federal, State, and 
local law enforcement officers. I also know that has changed 
significantly since that that fateful day. I do believe that we have a 
much better environment for information sharing amongst law enforcement 
agencies today.
    Wayne County has 43 cities and townships, all with their own Police 
Chief and Fire Chief. The City of Detroit is the largest city in Wayne 
County and also the seat of county government. The local police and 
fire chiefs have three mutual aid groups, Downriver, Western Wayne 
County, and Eastern Wayne County. There are two small communities, 
Highland Park and Hamtramck that are completely surrounded by the City 
of Detroit. All of the Public Safety agencies in Wayne County assist 
each other with different special events that occur throughout Wayne 
County.
    The Michigan State Police and all of the Federal Law Enforcement 
agencies have a presence in Detroit. Law Enforcement coordination 
occurs through task forces, joint operating groups, and day-to-day 
information sharing.
    The Wayne County Sheriff's Department operates three jail 
facilities, court room security, road patrol, marine patrol, and 
narcotics/morality enforcement. Sheriff Benny Napoleon coordinates 
activities with other sheriffs in Southeast Michigan as well as with 
local, State, and Federal agencies.
    In addition to law enforcement we work with our private partners 
who give us input and feedback on planning and information sharing to 
protect the residents and visitors of Wayne County.
    Wayne County and city of Detroit share an international border with 
Essex County and the city of Windsor. There are many events that occur 
on the Detroit River between these communities as well as the shipping 
that occurs annually. This requires coordination between all law 
enforcement, fire, and EMS agencies along the border. We also have 
several large hospital systems that receive Canadian patients every 
day.

                       THE NEED FOR GRANT FUNDING

    The Homeland Security grant funding that has come to this area is 
provided by the Homeland Security Grant Program. The Metropolitan 
Statistical Area (MSA) includes Detroit, Wayne County, Livonia, and 
Warren. These communities have the largest populations in the core 
urban area. It was determined by the Department of Homeland Security 
that these core urban areas were at the highest risk for potential 
terrorist attacks. With this determination the Urban Area Security 
Initiative grant has provided billions of dollars throughout the United 
States. In the Detroit Urban Area we have received some of the funding 
intended for this risk mitigation. We used the allocated grant dollars 
to assist the public safety agencies to prevent and protect the public 
from acts of terrorism. We have educated the public about emergency 
preparedness and recognition of potential terrorist activities. During 
these depressed economic times these activities would have not been 
able to have taken place without the Homeland Security Grant Program. 
The need to have a strong and resilient Northern Border will rest with 
those entrusted with protecting us.

                           REGIONAL APPROACH

    Within the first few years of the Homeland Security Grant Program 
starting, the State of Michigan recommended a regional approach to 
grant funding. The Core Urban Area was asked to add the additional five 
counties in Southeast Michigan to its region. This was agreed to based 
on that recommendation, and this group exists today as the Urban Area 
Security Initiative Regional Planning Board. We have developed a 
regional strategy and use it as a guide for the project allocation of 
Homeland Security grant funds. The core county has found that while the 
regional group is a good concept, it does not provide for the best use 
of ever-shrinking financial resources given that the highest risk 
remains in the core Urban Area. The Northern Border has had additional 
grant fund used for patrol efforts. The Stonegarden grant provides 
overtime and backfill for patrol efforts by communities along the Lake 
St. Clair, Lake Erie, and Detroit River border area. It also allows for 
equipment to be purchased to assist with these patrols. This is a 
coordination of Wayne County Sherriff's Marine Patrols along with local 
communities' shore patrol. The information of these patrols is given to 
the DHS Customs Border Patrol Division for their review.
    We also have a State-wide shared channel radio system that allows 
for interoperable communication throughout the region and the State. 
Wayne County was the recent recipient of the Border Interoperable 
Communication Grant Demonstration Project. This will allow for an even 
greater level of radio communications interoperability with our 
Canadian partners.
    Wayne County has also used Homeland Security grant funding to 
develop a border surveillance camera system along its international 
border. This system will be made available to local, State, and Federal 
law enforcement.

               RECOMMEND FEDERAL OR STATE POLICY CHANGES

    I encourage a review of the way the Homeland Security Grant Program 
dollars are distributed in the Detroit Urban Area so that these 
shrinking resources can be used as intended on the high-threat, high-
density areas. If this is not done, I believe that we will not be 
giving the citizens the best protection that they should have.

                                SUMMARY

    In summary Mr. Chairman, Wayne County realizes that we are an 
integral part of the surveillance and security of our share of the 
Northern Border. This responsibility is taken very seriously and we 
continue to work with all of our public and private partners to 
strengthen our border area. The planning, training, and exercising to 
complete this mission are greatly assisted through the use of Homeland 
Security grant dollars. Without these dollars it significantly reduces 
our ability to have a resilient U.S. Canadian border.
    Thank you for the opportunity to share with you the work of County 
Executive Robert Ficano, and the hard-working men and women of Wayne 
County. We will always work to protect the resident, workers, and 
visitors by securing the international border in Wayne County.

    Mr. Bilirakis. Thank you very much.
    Thank you, gentlemen, for your excellent testimony.
    I am going to recognize myself for 5 minutes for questions. 
The first question is for the panel, and this is an obvious 
question. How is FEMA doing?
    You know, getting good report cards from folks in the 
Northeast--Members of Congress representing folks in the 
Northeast on both sides of the aisle--with regard to the 
floods. How is FEMA doing in this region? Is there a lot of 
cooperation there?
    Mr. Austin. Yes, I believe so, but I will have a more 
definitive answer when the Assistance to Firefighters Grants 
are awarded.
    [Laughter.]
    Mr. Austin. We submitted $4.9 million in grants for 
equipment and--that we need to provide the service, level of 
service. So, hopefully, they will come through, with your 
support.
    Mr. Bilirakis. Anyone else wish to respond?
    Captain Sands. Sure. I will respond. FEMA has been a very 
good partner. For example, you know, we have been working on 
this North American mutual aid agreement. They just recently, 
this week, hosted that in an effort to continue to move that 
forward. So there is everything on a daily basis that interact 
with them in a number of different areas, and I am very 
satisfied.
    Mr. Bilirakis. Very good. Okay.
    Mr. Buford. If I could just quickly----
    Mr. Bilirakis. Yes, go ahead.
    Mr. Buford [continuing]. Mr. Chairman? We know that there 
is going to be a lot more Congressional oversight when it comes 
to the Homeland Security Grant funding. The citizens of the 
country want to know what has been done with these billions of 
dollars that have been sent here, and we know that we are 
working with FEMA to make sure that we identify how those 
resources were spent and that they were spent well.
    So we just require that FEMA works closely with us on those 
needs and being able to get the information to them that they 
are requesting.
    Mr. Bilirakis. Very good. Thank you.
    Captain Sands, how would you rate the usefulness of the 
intelligence and analysis you and the Michigan Intelligence 
Operations Center are receiving from the Department of Homeland 
Security, particularly with respect to the counterterrorism 
information you receive from DHS's Office of Intelligence and 
Analysis? Again, how would you rate the usefulness in 
intelligence and analysis that you are receiving?
    Captain Sands. Yes, it is very useful. It has been 
improving as the fusion centers and the information-sharing 
environment grows.
    I believe it is important for everyone to recognize that 
these centers and abilities are just recently being formed and 
getting up to speed. Some of those communications that we used 
to struggle with are now starting to flow. So they are useful.
    Mr. Bilirakis. Thank you. Thank you.
    I am interested--this is for all the witnesses--I am 
interested in hearing more about your impressions of the River 
Readiness exercise and how you plan to incorporate lessons 
learned into your operations to address any gaps in your 
preparedness.
    Director Lundy, you noted that there were many successes, 
but also weaknesses in your statement. What are some of the--
describe some of the successes and address the weaknesses, if 
you can, please.
    Mr. Lundy. Mr. Chairman, well, some of the successes are 
the fact that we were able to bring, for the first time that I 
know of in this area, as many different jurisdiction and 
entities, both U.S. and Canadian together, and be able to 
establish a unified command and actually go through the 
response was very significant. Where the weakness may be is 
that you have a year to plan for the exercise to bring those 
individuals together.
    While we actually did response, say, a response of 
individuals off of the Detroit River, which was actually done 
by I believe they are called Gumby suits--they actually threw 
these floatable suits into the water, and they actually had to 
actually pull them out. So response times, even during the 
exercise is, of course, not where we want it to be. You can 
only get better by, you know, continuing to do these exercises 
and continuing that training and then using the exercise so 
that it can be evaluated.
    Interoperability was another area. While we were able to 
talk, there were certain pieces of equipment that didn't work 
as well as we expected. So we still have some things to 
overcome there. Of course, as you go through a scenario for the 
first time like this, your standing operating procedures may 
not have included something that now you need to add, as a 
checklist or on a flowchart.
    So those are probably the two or the three biggest items, I 
think, is just working as a large entity, the response times, 
and then just being able to use the interoperability as well as 
we think we should, if it became a mass situation and a 
situation that would be sustained at least for maybe 72 hours.
    Mr. Bilirakis. Thank you, sir.
    Anyone else wish to comment on that?
    Mr. Austin. Yes, in two areas. First of all, on the 
successes, I think working with our response partners and 
getting to know them was really a great opportunity.
    One of the weaknesses Mr. Lundy pointed out is the fact 
that we had a year to plan for it. Some of the weaknesses that 
I saw internally was our need to improve our multi-casualty 
response capability.
    Another weakness, I think, is, again, our maritime 
response. You know, we had a simulated fire on the Detroit 
Princess. Because our boat is not in the river year-round, we 
don't really have the in-depth understanding of maritime 
incidents and fighting fires on floating ships, quite honestly.
    So, there are some things that we can do. I have locked in 
on them, and we are going to be working to improve that 
capability.
    Mr. Bilirakis. Very good, sir. Anyone else?
    [No response.]
    Mr. Bilirakis. Thank you very much, and now I am going to 
yield the rest of the time to a great Congressman from the 
great city of Detroit, Mr. Clarke.
    Mr. Clarke. Thank you, Mr. Chairman.
    What I will do is I will first address my question to 
Commissioner Austin, Mr. Lundy, Mr. Buford, then to Captain 
Sands.
    I would like to recognize that we did have Governor Miller 
of Wayne State University, who was here for a while as a member 
of the governing board of this great institution. I want to 
thank again Captain Holt for that great simulation on a 
bioterrorist attack on Wayne State University. We had a great 
discussion here earlier.
    I see Isaac Robinson with Ranking Member Congressman 
Conyers, Ranking Member of Judiciary, is also here. Thank you, 
Isaac, for being here. The Congressman and I are very concerned 
about not only protecting our people from an attack or a 
disaster, but also making sure that as our Federal department 
does that, it doesn't--that it doesn't unduly discriminate or 
profile against folks who really pose no harm to us here in 
this area.
    Commissioner Austin, you talked a little bit about the 
population loss in the city of Detroit over the last 10 years. 
You know, that loss has really depleted our tax base here in 
the city, and it is because Federal Government over the last 
few years has not effectively addressed this housing crisis.
    The rampant foreclosures that hit this region, especially 
the city, ended up evicting many people out of their homes. 
Other folks had no choice but to walk away from their homes. 
That created the huge blight and the huge loss in tax funding.
    You had also indicated that Detroit is on the rebirth on 
account in part of many economic development incentives. But as 
a first responder and as a Detroiter, we all are acutely aware 
that we could have all the economic development programs we 
want. The only way we are going to bring people and businesses 
back, if folks know that this city is a safe place to do 
business and to live.
    While the Department of Homeland Security can help 
coordinate a response, when disaster hits, it is your men and 
women that are there to respond. Right now, in my opinion, from 
what I have heard through this hearing and what I also heard 
during the discussion of the simulated bioterrorist attack, we 
don't have the resources to adequately protect or prepare 
against such an attack. That concerns me gravely.
    So, you know, in light of your nearly $5 million request 
for Assistance to Firefighters Grants and in light of the cuts 
to that program, Commissioner, how do you plan to respond to 
that and to protect our citizens here?
    Mr. Austin. Start off by praying. Second by appreciating 
the men and women on the Detroit Fire Department, the 
firefighters and EMS workers who are truly committed.
    We recognize in the fire service that we have to have a 
``make it happen'' attitude. As I have often said, ``There is 
no 9-2-2. There is only a 9-1-1.'' When you dial 9-1-1, you 
expect firefighters and law enforcement to show up. We 
recognize that, and we do it. But it is getting more and more 
difficult.
    We requested in the grant full turnout. You know, in the 
winter time, this is something going to be new to me. Fighting 
fire in California is totally different than fighting fire in 
January in Michigan. When our firefighters get drenched and 
their turnout gear is wet and they have to continue to go out 
to fire after fire after fire, it gets pretty cold to be in 
that wet gear.
    So I have nothing but great admiration for the men and 
women. In the fire service, you break an arm and a leg of a 
fireman and tell him or her to hang wall paper on the ceiling, 
we generally start hopping to hang that wallpaper.
    But you know, at some point, we are going to need some 
relief. My biggest concern, as I look at this fire service 
equation here in Detroit, is the 50,000 to 80,000 vacant 
dwellings that the last firefighter that died in the line of 
duty here, Walt Harris, died after a third time into a fire.
    In other words, there were two previous burns. On the third 
time he went into that situation, an accident happened on the 
fire ground. Partly the roof collapsed and killed him.
    If I have 50,000 vacant dwellings, and I have to go into 
them each three times, I essentially have 150,000 dwellings 
that are potentially in my fire inventory.
    We are working hard. The Mayor, council is working hard to 
try and get rid of some of this blight. I believe if we could 
wipe that off the table, it would change the whole environment 
for a fire service that can be more responsive, more effective, 
for a community that will be attracting residents back, 
building our tax bases, and we won't have to lean as much on 
the Federal and the State governments.
    Mr. Clarke. Thank you, Commissioner.
    Just on that end, that is why I am pushing legislation 
right now in Congress to allow Detroiters to keep the Federal 
taxes that we pay on a pilot basis. That is an additional $2 
billion every year. So we can invest it right here at home to 
help clear up some of these properties, train people for jobs, 
and rebuild our city.
    So I am thankful that we have over 30 cosponsors on that 
legislation, including support from Republican lawmakers.
    You know, Commissioner, just before I go on, you know, I 
know many of your great firefighters like Mr. Taylor, Mr. 
Atara. Could you just have the great men and women of the 
Detroit Fire Department to stand and be recognized?
    Mr. Austin. Absolutely.
    Mr. Clarke. Also by name, if they could introduce 
themselves? On the record and for the committee.
    I just want the Department of Homeland Security and our 
subcommittee in the Federal Government to know who is on the 
front line protecting our people here.
    [Applause.]
    Mr. Austin. We have Assistant Fire Marshall Osric Wilson, 
my Second Deputy Commissioner Charleta McInnis, Community 
Relations Chief, Chief Kwaku Atara, and Deputy Commissioner 
Fred Wheeler.
    Also a partner who is not on the fire department, but 
sometimes I think he is--Mr. John Jamian, director of the 
Detroit/Wayne County Port Authority, a dear friend and 
supporter.
    [Applause.]
    Mr. Clarke. Thank you.
    Mr. Austin. I am going to be possibly rude. You know--you 
can be seated, I believe.
    If I could have just one quick second because I am talking 
to the Federal Government now. I had a citizen call me the 
other day, complaining about the blight and vacant homes in her 
area. I drove over on the east side of town, and I was just 
quite devastated. I had this epiphany, and I am going to just 
throw it out here because I have your ear.
    The United States Navy has an arm called the Seabees, and 
they are a construction arm that came about in early World War 
II. They would drop them in the jungle, come back a week later, 
and they have mowed down a mile-long runway.
    I am going to go through more formal channels. But I have 
often thought if it was possible for the Department of Defense 
to engage the Navy to come to Detroit and tear down 10,000 
homes? I will settle for three.
    But I just wanted to throw that out there. I could not walk 
away from this committee hearing without trying to reach out to 
you. It is kind of out-of-the-box thinking. I am actually off 
the table in some of my thinking, trying to help this city turn 
around. So----
    Mr. Clarke. Well, Commissioner, I appreciate that request. 
I am going to make that request of the Department of Defense. I 
think that is important for us to demolish and clear out those 
blighted homes. But for one reason, so we can rebuild our city. 
Absolutely.
    Here is the reason why I say this. All the tough times we 
have gone through in Detroit, we still have the best 
manufacturing know-how in this country. We have got the best-
trained workforce. We have this great research university right 
here in the middle of our city.
    So if we clear out this blight, that is vacant land that 
new plants can locate here in advanced manufacturing. But we 
have to have the city safe. See, homeland security is not just, 
you know, fighting terrorism or a natural disaster. It is also 
making everybody safe here who live here every day in Detroit 
safe and secure. Because we have got to have a safe and secure 
city if we want to attract people and businesses back.
    So, yes, I will take that message to the Department of 
Defense as a way of rebuilding our region economically and 
creating new jobs. Absolutely. I think it is a great idea.
    Mr. Austin. Thank you. Thank you, Mr. Congressman.
    Mr. Clarke. So I only have a couple very brief questions, 
Mr. Chairman.
    Thank you again, Commissioner.
    Mr. Lundy, as you know, you and I talked offline about the 
importance of the Urban Areas Security Initiative funding. With 
the Chairman's support, again, we were able to maintain the 
eligibility for metro Detroit for that funding.
    So, yes, having the funding available is important. That is 
what we can help secure in Congress. Do you have any concerns, 
though, on how that money is being spent, how it is being 
distributed?
    Mr. Lundy. Yes, Mr. Congressman. I think Mr. Buford started 
to discuss this as well. He talked about the regional concept. 
While that may have been great back a few years ago when the 
concept came up, as you know, many grants are going away. The 
dollars are shrinking. It just has to go back to directing the 
funds to where they need to be directed.
    I will use as an example, I came on-board here in this job 
5 years and 1 month ago. Third week on the job, I looked in the 
office and I said, ``Where is the city of Detroit's emergency 
operations center?'' The city of Detroit does not have a 
standing emergency operations center to this day.
    The grant dollars--one of the first things that I began 
working on was to identify grant dollars to be used to stand up 
an emergency operations center, which was an allowable cost. 
Under the concept, as we expanded with the five additional 
jurisdictions, it was identified that that is a local 
jurisdiction's issue because we are all equal here. Unless it 
is something that we can all share in, then the dollars won't 
go to it. To this day have not.
    Luckily, DHS created an EOC grant, which I understand is 
going to be going away in the future. The max was only $1 
million per year. We have been lucky to win two of those over 
the past few years. I am still trying to stand it up.
    We have shifted our thought right now as we move in and 
develop the public safety center now, which is at the old MGM 
Grand. We are still another year and a half away. We will be 
moving our office. We will be standing up the EOC. It will be 
police and fire as well.
    That is just one example, and I can go over many examples 
as to where dollars have not been focused at the big dog on the 
porch. My city government--the CAYMC, the Coleman A. Young, 
where the Mayor, our city council, a court system, some county 
entities, 3 years ago, I had DHS come in. They conducted a site 
assistance visit, vulnerability assistance visit. Fifty-page 
document, gaps and vulnerabilities we are still having issues 
with, I could not focus grant dollars that were allowable, an 
allowable expense to be focused to fix those things.
    Why again we are focusing from a regional standpoint to 
some things that may benefit the region that I simply say is 
probably a priority 1-V, but not a 1-A? So we have got to get 
back to focusing those few dollars on what the real priority 
is. If that means that the region is no longer as large as it 
is right now, then so be it.
    I have talked to many partners across the Nation as they 
have expanded. Many didn't. Chicago, I know, remained its 
region as Chicago and the county. San Diego did the same thing. 
Some did expand.
    But also some of those that have been pretty successful as 
well, the lead was still by, as was said by Mr. Buford, the 
core city and the core county assets. So we are lacking here 
right now. We have a lot of vulnerabilities and gaps that we 
just have not been able to tackle because of the funds being--
going somewhere.
    I talked to FEMA. You asked about FEMA. They came in and 
did a monitoring visit not too long ago, and I showed them the 
regional strategy versus the city of Detroit strategy, which is 
my priority is to make sure that we are a safe and sound city 
for the citizens and the guests that come in for all these 
events. They don't match. What you get from the regional 
strategy, unfortunately, is a watered-down version of what we 
really need.
    Mr. Clarke. So we could best use our tax dollars if we 
focused the Urban Areas Security Initiative funding on where 
the greatest need and the greatest risk is, which is in the 
city of Detroit----
    Mr. Lundy. Absolutely. Those unique needs, as we keep 
talking about--the border issues, the critical infrastructure, 
these soft targets from all these special events. We have got 
to get back to some very basics.
    When I can't stand up an emergency operations center or it 
takes me, you know, a day to stand up the room--you know, it is 
10 years after 9/11. We shouldn't be here.
    Mr. Clarke. Well, this helps educate us on this. I am going 
to make that request on the region's behalf. A stronger Detroit 
is going to protect the region, but let us work together off-
line to get that communication together.
    Thank you.
    To Mr. Buford, you had talked about some of the gains that 
we made in first responders at the local level and at the State 
level communicating better with each other through their 
communication systems, with the State of Michigan having the 
first State-wide shared radio system in the United States.
    But you also raised some concerns during our simulation 
about the on-going re-banding that has got to be completed and 
then also the need for first responders to be trained on how to 
best use these radios. Could you better describe to us the 
basis for your concerns and any other issues we need to address 
so that first responders throughout our region, throughout the 
State can better share information, whether it is voice or 
data?
    Mr. Buford. Thank you, Congressman.
    As you can tell that this is a passion of mine when it 
comes to interoperable communications in this region. There has 
been a significant amount of money that Congress has let for 
us. The Public Safety Interoperable Communications Grant was a 
billion dollar grant that we got approximately 3 years ago and 
distributed throughout the United States for the purposes of 
interoperable communications.
    We were able to partake in that grant, and we have used it 
for purchasing a simulcast radio system here in Wayne County to 
be a part of the State-shared radio system. We have bought 
radios--handheld radios and mobile radios that go in vehicles 
for many different communities throughout the area so that they 
would have that capability also.
    Just in Wayne County alone, I know that we have spent 
probably at least $8 million toward interoperable 
communications, and we could spend another $20 million easily 
to have more shared radio communications. Throughout the 
region, we have recognized the State-wide radio system as the 
radio system to go to, where six out of the seven partners have 
either moved toward the State radio system or are there at the 
State radio system or will be there very soon.
    So as I keep saying over and over again, that is a--the 
State has provided us with a tremendous asset that we can use. 
The training--sometimes we lose focus. In buying all the 
gadgets and the equipment that we need for the radio 
communications system, we don't do the training that is needed 
all the time. We have done some training, but where we do need 
to start focusing some of these shrinking resources is 
developing more training systems or training and education for 
the users of these radios.
    As was stated before, in many of these radios that are very 
technologically advanced, the systems are already in there. 
They have been programmed into these radios. But teaching the 
people how to use them, how to go to the appropriate zone on 
that radio and go to the appropriate talk group and use them is 
what they need to learn. Because often they don't understand 
that or they don't know how to do it. So we do have to invest 
in training our people on how to use these radios.
    The next area where we are going to have issues beyond 
radio communications is data communications. Throughout the 
country, law enforcement and fire service both use data 
communications by having in-car computers, having computers in 
fire engines, having them in their EMS rigs and things like 
that.
    Now being able to make sure that one data system talks to 
another data system, that that transmission of data between 
systems is just like interoperable communications. If they 
don't communicate--if I can't transfer data from a Wayne County 
sheriff's vehicle over to a Detroit police car, you know, that 
is not doing us any good.
    We need to be able to make sure that that data can be 
transferred, whether we are looking for a suspect and we need 
to transmit that picture back and forth between vehicles or 
between--or we need to transmit information about hazardous 
substances that may be at a facility between different fire 
departments. Those are things that transmission of data is the 
next big gap that we really have to cover.
    Mr. Clarke. Well, thank you, Mr. Buford.
    You know, presenting that Border Interoperability 
Demonstration Project Grant of $4 million to Wayne County was a 
great honor of mine. What you are saying is now we also have to 
train the folks on how to use the equipment and not only should 
we be concerned about interoperable radio communications, but 
how we are able to share data as well.
    Mr. Buford. Absolutely.
    Mr. Clarke. Well, I appreciate that. Just, you know, 
finally, to Captain Sands or whoever, the cuts in our State 
preparedness grants. How will that impact your ability to 
implement homeland security initiatives that the State has 
designed?
    Captain Sands. It is already being felt, and it is going 
to--when you project into the future with the 50 percent cut 
that Michigan just got, which could have been worse--
counterpart down in Indiana, they lost their UASI region.
    I want to take this opportunity to thank you. I think 
because if it wasn't for your efforts and those of a few 
others, we wouldn't have the UASI funding.
    Mr. Clarke. Well, thank you. It is an honor to work for 
you.
    Captain Sands. Especially with the funding cuts, the way 
those are set up, it has a 50 percent personnel cap. So when 
you look back to when we were building these capabilities, 
Michigan received approximately now just over $70 million. We 
were able to have quite a few personnel with that.
    Now we are looking at about just over $20 million, 
approximately $22 million. So half of that is what your 
personnel cap. We bought a lot of things over the years. Much 
of what we are doing right now is personnel-related issues 
within the fusion centers. The planning, the training, as Mr. 
Buford talked about, getting people, you know, trained in 
things is a continuous effort. Those take resources.
    Without additional funding, there are some things the 
Federal Government can do. They can take a look at the PRICE 
Act that caps that personnel cost. That would help us to 
sustain some of the critical programs that we have.
    Mr. Clarke. Well, thank you, Captain.
    That ends my questioning, and I just want to thank all of 
you for coming to testify, all of you for being here today 
because the leadership in Congress, as exemplified by Chairman 
Bilirakis, they understand the importance of metro Detroit, of 
our city, of our history. But also that, you know, if we are 
able to get the resources, the tax dollars we already pay to be 
returned back here, we can rebuild ourselves and actually 
create prosperity throughout this country.
    That is why for the first time ever, we have a homeland 
security Congressional hearing right there in the heart of 
Detroit. So, Mr. Chairman, thank you again for your leadership.
    Mr. Bilirakis. My pleasure, my pleasure.
    I want to thank the witnesses also for their valuable 
testimony, and I want to thank you, the city of Detroit, for 
their hospitality. I would love to come back. You can hold me 
to that.
    [Laughter.]
    Mr. Bilirakis. The Members of the subcommittee--I have to 
say these things, okay? This is in the script. But the Member 
of the subcommittee may have some additional questions for you, 
and we ask you to respond to these questions in writing. So we 
will have some questions for you, additional questions.
    The hearing record will be open for 10 days.
    Without objection, the subcommittee stands adjourned.
    Thank you very much.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
